<html>
<title> - ROUNDTABLE DISCUSSION: MEETING THE HIGHLY QUALIFIED TEACHER CRITERIA FOR SPECIAL EDUCATION TEACHERS</title>
<body><pre>[Senate Hearing 109-78]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-78

 ROUNDTABLE DISCUSSION: MEETING THE HIGHLY QUALIFIED TEACHER CRITERIA 
                     FOR SPECIAL EDUCATION TEACHERS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EDUCATION AND EARLY CHILDHOOD DEVELOPMENT

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON



 EXAMINING THE CRITERIA FOR SPECIAL EDUCATION TEACHERS TO BE ``HIGHLY 
 QUALIFIED'' IN ACCORDANCE WITH THE REQUIREMENTS OF THE NO CHILD LEFT 
                               BEHIND ACT

                               __________

                             APRIL 27, 2005

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions

                    U.S. GOVERNMENT PRINTING OFFICE
21-023                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman

JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
BILL FRIST, Tennessee                CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

       Subcommittee on Education and Early Childhood Development

                  LAMAR ALEXANDER, Tennessee, Chairman

JUDD GREGG, New Hampshire            CHRISTOPHER J. DODD, Connecticut
RICHARD BURR, North Carolina         TOM HARKIN, Iowa
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS (I), Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
MICHAEL B. ENZI, Wyoming (ex         EDWARD M. KENNEDY, Massachusetts 
officio)                             (ex officio)

                   Christine C. Dodd, Staff Director

                 Grace A. Reef, Minority Staff Director

                                  (ii)






                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, APRIL 27, 2005

                                                                   Page
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     1
Kennedy, Hon. Edward M. a U.s. Senator from the State of 
  Massachusetts, opening statement...............................     2
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama, 
  opening statement..............................................     3
Hagar, John H. Assistant Secretary, Special Education and 
  Rehabilitative Services, U.S. Department of Education; 
  Accompanied by Carolyn Snowbarger, Director, Teacher-To-Teacher 
  Initiative, and Special Assistant for Teacher Quality, Office 
  of Elementary and Secondary Education, U.S. Department of 
  Education; and Rene Islas, Special Assistant to the Assistant 
  Secretary for Elementary and Secondary Education, U.S. 
  Department of Education; Jeffrey Langham, Superintendent of 
  Education, Elmore County School System, Wetumpka, AL; James 
  McLeskey, Professor and Chair, Department of Special Education, 
  University of Florida, Gainesville, FL; Carol Ann Baglin, 
  Assistant State Superintendent, Division of Special Education/
  Early Intervention Services, Maryland State Department of 
  Education, Baltimore, MD; William Connolly, Teacher, Quirk 
  Middle School, Hartford, CT; Lana C. Seivers, Commissioner of 
  Education, Tennessee; and Mary Senne, Parent and Disability 
  Community Advocate, Orlando, FL................................     6
    Prepared statements of:
        Mr. Hagar................................................     9
        Mr. Langham..............................................    12
        Mr. McLeskey.............................................    15
        Ms. Baglin...............................................    17
        Mr. Connolly.............................................    20
        Ms. Seivers..............................................    23
        Ms. Senne................................................    26

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to questions of Senator Reed by John H. Hagar.......    44

                                 (iii)

  

 
 ROUNDTABLE DISCUSSION: MEETING THE HIGHLY QUALIFIED TEACHER CRITERIA 
                     FOR SPECIAL EDUCATION TEACHERS

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005

                                       U.S. Senate,
Subcommittee on Education and Early Childhood Development, 
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
Room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the subcommittee, presiding.
    Present: Senators Alexander, Sessions, Kennedy, and Reed.

                Opening Statement of Chairman Alexander

    Senator Alexander. Good morning. I am Lamar Alexander and 
this is what we are calling a roundtable of the Senate 
Education and Early Childhood Development Subcommittee.
    Now, I am not sure we know exactly what a roundtable is, 
but Senators usually have hearings. I discovered when I was a 
cabinet member and appearing before this committee when Senator 
Kennedy was the chairman, that I used to think they should have 
been called ``talkings.'' We would be invited to testify, but I 
learned that the witnesses usually did better if they didn't 
say anything because it was the Senators who wanted to talk 
during that time. But we resolved on this occasion we wanted to 
do it a little bit differently and we are here primarily to 
listen.
    Let me state what this roudtable is about. We will do some 
introductions. I will ask Senator Kennedy and Senator Sessions 
if they have some comments they would like to make. We will try 
and end this discussion by about 4:00 this afternoon, and other 
Senators, I know, are coming and going with the other events.
    The purpose of this discussion that we are having today is 
to really--is to take a look at what I would judge to be about 
200,000 teachers in this country. One of the questions we have 
is about how many teachers are we talking about that are 
affected by this. About 200,000 teachers who are special 
education teachers who teach children in special education 
classes or who are severely disabled and who teach multiple 
subjects in middle school and in high school. That is who we 
are talking about.
    What we are talking about are the requirements of No Child 
Left Behind that these teachers be, quote, ``highly 
qualified,'' and exactly what does that mean.
    Now, our objective today is to see if we can help make sure 
that we in Congress haven't created a situation that makes it 
difficult for the teachers, because we have imposed a schedule 
that is a fairly rapid schedule for doing what we hope to do. 
Several of us thought it would be helpful if we just had an 
airing of the situation and invited representatives of the 
Department of Education and other groups to talk about it. Then 
there are many groups represented around the area. We are glad 
you have come, because we would like for you to communicate 
back to these 200,000 teachers, more or less, and their 
superintendents and their principals what the rules are so that 
they will know what they need to do between now and the end of 
the next school year--that is May 2006--which is when these 
rules go into effect.
    Now, Congress took some steps to try to create more 
flexibility for States in dealing with these 200,000 teachers. 
By recognizing that, say, if you are in a rural area in Alabama 
and you are teaching special education children in high school 
and you are expected to teach five or six or seven different 
subjects to children who have different levels of understanding 
and who are a different place in their journey through life. 
Some flexibility and practicality and common sense is required 
in applying the goal that we all have, that these children also 
have highly qualified teachers. So that is what we want to talk 
about.
    One of our witnesses, who Senator Dodd will introduce, who 
is a teacher himself, in his testimony posed three questions, 
and those three questions seem to me to be the point of today's 
hearing. Here is his first question. What exactly do I have to 
do by the end of the next school year to demonstrate that I am 
highly qualified using the House option? Question two, will I 
have sufficient time to meet the requirements? And question 
three, what will the consequences be to me if I do not prove 
myself to be highly qualified? So those are really the 
questions that we seek to reach.
    Now, before I introduce everyone else who is here, I would 
like to call on Senator Kennedy for any comments he might like 
to make. He might also like to make an introduction of an 
important person who is sitting behind him.
    And then I will call on Senator Sessions, who offered an 
important amendment, which I cosponsored, toward the end of 
last session which wasn't adopted, but which was an amendment 
to try to extend the period of time that all of this could be 
worked out.
    Let me say one other thing. If it is all right, Ted, and 
with you and Jeff, what I thought we would do is maybe keep our 
comments to a reasonable period of time. Then I'll ask 
Secretary Hager if he would take about 5 minutes to summarize 
where things are from the Department's point of view, and then 
ask each of you to take about 3 minutes to summarize where you 
think we are, and then we can go back and forth and have a 
discussion and ask questions.
    Senator Kennedy?

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Thank you, Senator Alexander, for having 
this hearing. I appreciate you mentioning my sister. I have 
been in the Senate now 43 years and my sister still is checking 
on me to make sure that her younger brother is performing well.
    [Laughter.]
    So, Eunice, we are glad you are here.
    In a serious way, Eunice has devoted a very substantial 
part of her life, as all of you know, in the area of mental 
retardation, and founder of the Special Olympics, now in 150 
countries and all of our States, and takes a special interest 
in the quality of teachers and teachers that are dealing with 
disabled and particularly with mentally retarded children, so 
this is something that she is interested in.
    I thank you, Senator Alexander, for having the hearing. We 
don't do enough oversight generally here, and this legislation, 
both the No Child Left Behind and the IDEA, need the careful 
kind of oversight in a lot of different ways to find out ways 
that we can be useful and helpful in achieving what we 
attempted to achieve. I think you have outlined it very well.
    I am here today to find out what we can do to help. What 
can we do to help? We have the legislation. I think we have 
now, with Margaret Spellings and also with those that are 
overseeing the IDEA, we have good people that want to try and 
make sure that we are getting the right message and to try and 
make this whole process work.
    We know the importance of having a well-trained teacher. It 
is enormously important. We want those at the earliest possible 
time, but we don't want to scare people out of the areas, 
particularly in special education. We know we need not only 
good teachers, but we need good faculty members. We have the 
higher education legislation coming down the road that can be 
an instrument to try to provide some help and assistance, as 
well.
    So I thank you. We are also interested, when I was 
listening to your question, Mr. Chairman, about the House 
complying that, we know that a number of States don't even have 
the implementation in terms of the House, so how are they going 
to deal with the sort of challenges that they are facing?
    You have outlined the sort of challenge and I am looking 
forward to hearing from our really excellent panel that you 
have here today. We want to know what we can do to be of help 
and assistance to try and achieve the objectives as we wrote in 
the legislation. Thank you.
    Senator Alexander. Thank you, Senator Kennedy, and welcome, 
Ms. Shriver, who has a special relationship with Nashville 
because of Vanderbilt and Peabody and the work that is done 
there. We appreciate and welcome her frequent visits and 
interest in my home State.
    Senator Sessions?

                 Opening Statement of Senator Sessions

    Senator Sessions. Thank you, Senator Alexander. I like this 
format. Right after the passage of the reauthorization of IDEA, 
I hosted such a roundtable in Alabama and we had a great 
discussion. We learned things. We had the Department of 
Education people there. It is much better than listening to 
Senators pontificate, I have no doubt about that.
    [Laughter.]
    If we listen to the people who do the work, we find 
sometimes we can make things a lot better, not even having to 
spend a lot of extra money to do so. Sometimes we just reduce 
burdens.
    So we have been concerned about the quality of special 
education teachers. Everybody would like them better trained 
and better educated in precisely what they are doing, and I 
think our original No Child Left Behind requirements were 
confusing and unclear on special education particularly. I hope 
that the reauthorization improved the clarity of it.
    Lamar and I felt like it was reasonable because we had been 
so late in clarifying the requirements, that we give at least 1 
more year to these teachers to have a chance to meet those 
standards. We did not achieve that, but it was something that I 
thought was a valid concern.
    I am concerned a little bit about the profession. I 
remember very well one poll from Washington State that the 
teachers' association ran that said, I think, about 70 percent 
of special education teachers did not expect to be in the 
profession in 5 years.
    When I traveled the State, I had teachers come up to me and 
say, ``Jeff, we are worrying about paperwork. We are not 
worrying about the children. You are making our job more 
difficult instead of making it easier. We have too many 
lawsuits and regulations and we are worrying about compliance 
with rules and not spending enough time on the children.'' So I 
tend to believe that was accurate. I had too many people tell 
me that who have given their lives to it, who have advanced 
degrees in special education.
    So I think we made some progress with this last bill and I 
really am delighted that Senator Alexander has called us 
together to hear from your perspective, what we need to do 
about special education in general, but specifically about the 
highly qualified standards.
    Lamar, do you want me to introduce----
    Senator Alexander. Yes. Why don't you introduce Mr. 
Langham.
    Senator Sessions. He is sitting over here at the front. 
Jeff Langham has spent his career in education. He has held a 
variety of different roles, from school system curriculum 
coordinator to an administrator to staff development trainer, 
public relations director, and classroom teacher. He served as 
an educational specialist with the Prevention and Support 
Services Section of the Alabama Department of Education. He was 
at our roundtable we had in Montgomery a couple of months ago.
    He has provided building-based student support team 
training and technical assistance statewide to teachers and 
administrators, and has served as a ``Seven Habits of Highly 
Effective People'' facilitator for Alabama's schools. He is 
currently the Superintendent of Education for Elmore County and 
at one point was principal for my staff, Prim Formby here, who 
I will note was valedictorian of Wetumpka High School.
    [Laughter.]
    She does a great job for me.
    Thank you, Lamar, for allowing Superintendent Langham to 
join us.
    Senator Alexander. Thank you, Jeff.
    Let me introduce a few other people, and then I will go to 
Secretary Hager and let him start.
    I will start with Lana Seivers, who is our Commissioner of 
Education from the State of Tennessee. She has got a very broad 
career in the Oak Ridge High School system. She was 
superintendent. She has been on every Governor's advisory 
committee. She is the current Chief Education Advisor of our 
current Governor and has devoted a lot of her work, personally 
as well as professionally, to understanding the needs of 
children with special needs.
    James McLeskey is currently a professor and chair in the 
Department of Special Education, University of Florida, a 
teacher at many levels. I am not going to give long 
introductions, if you all don't mind. That way, we can get on 
to your talking. Dr. McLeskey, we welcome your coming and we 
welcome your expertise.
    Carol Ann Baglin is Assistant State Superintendent of the 
Division of Special Education at Maryland State Department of 
Education. She has been doing that since 1996, and she has a 
broad and extensive background.
    Mary Senne is from Florida and she has been working in the 
disability--she is a parent and working in the disability 
community on behalf of her second child, Patrick. She has a 
Master's degree in psychology and has received numerous awards 
and been active and brings a special perspective to this, as 
well.
    Let me see who I am missing here. Bill Connolly is going to 
be introduced by Senator Dodd when he comes. I just read his 
statement. He is a special education teacher at Quirk Middle 
School in Hartford, CT, and Bill, we welcome you.
    Now I will introduce Secretary Hager and let him introduce 
his two associates, if I may, and then, John, if you would take 
about 5 minutes and summarize your position, and then we will 
just start right over here and go right around the room, about 
3 minutes each, and then we will ask questions.
    John Hager is a former Lieutenant Governor of the State of 
Virginia, active in education matters, helped with the 
transition for the current Governor of Virginia. I want to 
thank him for taking the time to pay special attention to this 
issue and for coming to see me earlier about it.
    I guess, John, why don't we give you a chance maybe to 
start answering at least a couple of Mr. Connolly's questions. 
What exactly does he have to do by the end of the next school 
year to demonstrate that he is highly qualified and what will 
the consequences be to him if he doesn't prove himself to be? 
Of course, the other thing we are interested in finding out, 
since we in Congress have established this rather speedy 
schedule and these requirements, is there anything we need to 
do or we need to know that would help make it easier for 
teachers and for the Department to do its job better?

   STATEMENTS OF JOHN H. HAGER, ASSISTANT SECRETARY, SPECIAL 
   EDUCATION AND REHABILITATIVE SERVICES, U.S. DEPARTMENT OF 
    EDUCATION; ACCOMPANIED BY CAROLYN SNOWBARGER, DIRECTOR, 
   TEACHER-TO-TEACHER INITIATIVE, AND SPECIAL ASSISTANT FOR 
TEACHER QUALITY, OFFICE OF ELEMENTARY AND SECONDARY EDUCATION, 
U.S. DEPARTMENT OF EDUCATION; AND RENE ISLAS, SPECIAL ASSISTANT 
    TO THE ASSISTANT SECRETARY FOR ELEMENTARY AND SECONDARY 
   EDUCATION, U.S. DEPARTMENT OF EDUCATION; JEFFREY LANGHAM, 
   SUPERINTENDENT OF EDUCATION, ELMORE COUNTY SCHOOL SYSTEM, 
     WETUMPKA, AL; JAMES McLESKEY, PROFESSOR AND CHAIRMAN, 
    DEPARTMENT OF SPECIAL EDUCATION, UNIVERSITY OF FLORIDA, 
      GAINESVILLE, FL; CAROL ANN BAGLIN, ASSISTANT STATE 
      SUPERINTENDENT, DIVISION OF SPECIAL EDUCATION/EARLY 
INTERVENTION SERVICES, MARYLAND STATE DEPARTMENT OF EDUCATION, 
BALTIMORE, MD; WILLIAM CONNOLLY, TEACHER, QUIRK MIDDLE SCHOOL, 
   HARTFORD, CT; LANA C. SEIVERS, COMMISSIONER OF EDUCATION, 
  TENNESSEE; AND MARY SENNE, PARENT AND DISABILITY COMMUNITY 
                     ADVOCATE, ORLANDO, FL

    Mr. Hager. Thank you so much, Senator Alexander, Senator 
Kennedy, Senator Sessions. I am pleased to serve on this 
distinguished panel with all my associates here and 
particularly my two associates from the Department of 
Education, Carolyn Snowbarger and Rene Islas, and they will 
chime in as we go along today because they are the true experts 
in knowing a lot of the background in this particular arena.
    We are happy to talk about the subject of highly qualified 
teachers, because as you said, and as Senator Kennedy said, it 
is the key to a better education for our special education 
students.
    If I might, I would like to make an opening statement and 
then come back to the questions that you posed. I will be 
brief, but I wanted to sort of set the stage, if I might.
    The No Child Left Behind Act, or NCLB, is truly landmark 
legislation in the history of American education. And because 
the cornerstone of the law is the founding belief that all 
students can learn, including students with disabilities, it is 
very important that we pay attention to the standards for the 
professionals who specialize in teaching students with 
disabilities, or what we better know as special education 
teachers.
    The Individuals with Disabilities Education Act, or IDEA, 
is also a landmark statute which has ensured that children with 
disabilities are afforded the same educational opportunities as 
their nondisabled peers. The recently reauthorized statute, 
which as you know was signed by the President on December 3 of 
last year, and NCLB work together to focus on results for all 
children, and they come much closer together with your 
reauthorization.
    NCLB requires three simple things of teachers. They must 
hold at least a Bachelor's degree, full certification from the 
State, and know the subject that they teach. The reauthorized 
IDEA reaffirms those same NCLB requirements.
    The Department has what I call a common sense approach to 
the highly qualified teacher requirements under NCLB and we 
have worked with the Congress to provide additional flexibility 
under IDEA. Special education teachers who are already in the 
field can use the High Objective Uniform State Standard of 
Evaluation, better known as HOUSSE, including a HOUSSE covering 
multiple subjects, to demonstrate competency in the core 
academic subjects that they teach, and I think that is the key, 
the core academic subjects. In fact, under NCLB, all teachers 
were required to be highly qualified if they teach core 
academic subjects, special education teachers included.
    Special education teachers who are teaching exclusively to 
children with disabilities who are assessed against alternative 
achievement standards must have subject matter knowledge at the 
elementary level or above needed to effectively teach to those 
alternative achievement standards as determined by each State, 
so that is a slightly different requirement for those who are 
teaching that particular group.
    New special education teachers who teach multiple core 
academic subjects and are highly qualified in math, language 
arts, or science have a 2-year time period, an additional 2 
years, to demonstrate subject mastery in other core academic 
subjects that they might teach if they are just qualified in 
one.
    The Department believes it is possible for all teachers to 
become highly qualified by the deadline, either through the 
rigorous tests, either through the HOUSSE that each particular 
State is setting up or through whatever academic pursuits that 
they are engaged in.
    The Department certainly has engaged in activities to help 
teachers understand NCLB, to help teachers understand highly 
qualified teacher requirements, and to achieve the status. One 
very important initiative that accomplishes the three goals is 
the Teacher-to-Teacher Initiative. Some of the Teacher-to-
Teacher Initiative activities include, first, Teacher-to-
Teacher Workshops, which were held during last summer and fall 
2004 and will be held again this summer in six locations around 
the country for about 250 teachers each. A heavy emphasis on 
these sessions is teaching students with disabilities, tying 
back in with special education.
    The e-learning on teacher quality Web site, these e-
learning modules have been developed using content from the 
summer of 2004 workshops, and 32 States have agreed to allow 
teachers to use the e-learning modules toward points on their 
HOUSSE, or their recertification requirements.
    And third, ongoing teacher roundtables on various topics, 
during which senior Department officials listen to and engage 
teachers in discussion regarding teacher needs and concerns, 
and I think there was one of those just yesterday.
    So you see, we take a diligent and a proactive approach to 
help teachers understand the requirements, but also understand 
how they can themselves become highly qualified, and we try 
also to provide flexibility and support to help all teachers 
meet the deadline.
    With the reauthorization of IDEA, we intend to launch 
additional efforts to support special education teachers' 
understanding of what highly qualified means for them. We at 
the Department are pleased that the reauthorized IDEA affirms 
the highly qualified teacher requirement as set forth in NCLB, 
with some additional flexibility.
    It is simple. Students need and deserve highly qualified 
teachers. Parents expect it, especially special education with 
disabilities, and the Department knows that requiring all 
teachers to be highly qualified is the right thing to do.
    Now, to get to your questions and the questions of, I 
think, Mr. Connolly, I am not personally familiar with that 
particular State requirement. You are in Connecticut, I 
believe. I don't know, Carolyn, would you or Rene like to 
comment on the HOUSSE?
    Mr. Islas. Sure. We can talk generally. As you know, the 
State has the flexibility to develop their own--Congress has 
given the flexibility to develop their own High Objective 
Uniform State Standard of Evaluation, or HOUSSE. We know that 
Connecticut has developed one, yet it varies, just like every 
other State, and I don't have the in-depth knowledge about your 
particular State's HOUSSE.
    But it is a way for teachers, including special education 
teachers, to demonstrate competency and meet one of the HQT 
requirements, the highly qualified teacher requirements, 
without being forced to go back and take a test, without being 
forced to take extra coursework. It is a way to allow your 
experience, your expertise, all of your years of experience and 
your professional growth over the time to be recognized toward 
meeting the highly qualified teacher requirements. We think 
that is flexible and we hope that your State has developed one 
that works for you.
    Senator Alexander. Thank you, Rene. We will get to--let me 
ask one question that I think will anticipate something. There 
are regulations that the Department will prepare----
    Mr. Hager. Yes.
    Senator Alexander. Do you want to say a word about the 
timing of the regulations and the effect those might have, for 
example, on whatever requirements Connecticut has for Mr. 
Connolly?
    Mr. Hager. I will be glad to speak to the timetable of the 
regulations because we think that is very important. The 
regulations currently are in final clearance with the Office of 
General Counsel at the Department of Education. We expect the 
Secretary to send them to the Office of Management and Budget 
on Friday. It should take about 2 to 3 weeks to clear the 
Office of Management and Budget, at which time they will be 
published in the Federal Register.
    Our first hearing, NPRM hearing, is on June 6 in San 
Antonio and there will be seven, a total of seven hearings over 
about a 6-week period, one of which, incidentally, is in 
Nashville. After the hearings, of course, we will go back and 
take into account all the testimony that has come in and make 
the final modifications.
    Our intention is to announce the regulations and release 
them either on the 30th anniversary of IDEA, which I believe is 
November 28 or 29, or December 3, which would be the 1-year 
anniversary of the signing of the reauthorized bill. So we will 
beat the previous track record by a year and 3 months and we 
will have them out within this year.
    Senator Alexander. I commend you for that. That is an even 
faster schedule than you were on before, and you are right. For 
special education regulations, that will startle some people, 
that they might come out that--
    [Laughter.]
    Mr. Hager. And we hope that includes not just Part B, but 
Part C, as well.
    Senator Alexander. [continuing.] And then those regulations 
affect or set the Department's attitude about State 
requirements for teachers like Mr. Connolly. What they need to 
do in order to be a highly qualified teacher, is that correct?
    Mr. Hager. That is correct, although----
    Senator Alexander. And they have a chance to be 
accomplished by the May following this November or December 
announcement.
    Mr. Hager. The 2005-2006 school year, that is correct. I 
will say, though, that the regulations are basically intended 
to follow the law. I mean, we don't want to set out too much 
new ground. We are trying to follow the intent of the Congress.
    Senator Alexander. Thank you for setting out the situation, 
Secretary Hager.
    [The prepared statement of Mr. Hager follows:]

                  Prepared Statement of John H. Hager

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to talk with you today on the topic of highly qualified 
special education teachers. The No Child Left Behind Act, or NCLB, is 
truly landmark legislation in the history of American education. 
Although this law is much discussed and sometimes misunderstood, it 
does represent the gold standard by which all other accountability-
based education policies should be measured. NCLB is the result of 
bipartisan legislation built upon the premise that all children can 
learn to high standards. It also recognizes that students need highly 
qualified teachers in order to meet challenging State academic 
standards. Because the cornerstone of this law is the founding belief 
that all students can learn, including students with disabilities, it 
is very important that we pay attention to the standards for 
professionals who specialize in teaching students with disabilities or 
special education teachers.
    The Individuals with Disabilities Education Act, or IDEA, is also a 
landmark statute. This law has ensured that children with disabilities 
are afforded the same educational opportunities as their nondisabled 
peers. The recently reauthorized IDEA statute and NCLB work together to 
focus on results for all children.
    This afternoon I would like to talk about the highly qualified 
teacher requirements as they relate to teachers of students with 
disabilities. As you know, NCLB requires three simple things of 
teachers: they must hold at least a bachelor's degree, full 
certification from the State, and know the subject they teach. The 
reauthorized IDEA reaffirms the NCLB requirements because research 
shows that teachers are a key factor in student achievement. Research 
tells us that if a student has an ineffective teacher 3 years in a row, 
his or her achievement shortfalls most likely will not be remedied. The 
student won't catch up. Along the same lines, research tells us that 
when teachers are knowledgeable about the subject matter they teach, 
their students achieve to higher standards. This is true for all 
students, including students with disabilities.
    Before the passage of Public Law 94-142 in 1975, the first version 
of what we now call IDEA, more than 1 million children with 
disabilities were excluded from the education system. Thirty years 
after the initial implementation of this legislation, 6.8 million 
children with disabilities are receiving special education and related 
services under IDEA, and 96 percent of students with disabilities ages 
6-21 are now served in regular education classrooms with their 
nondisabled peers. We have made incredible progress in gaining access 
to mainstream education for students with disabilities, and we have 
made steady progress in ensuring that students with disabilities have 
access to the general curriculum. We now need to strive for the same 
excellence in education, for this population of children, as we strive 
for excellence for children who do not have disabilities.
    State-reported data collected by the Office of Special Education 
Programs (OSEP) tells us that roughly 50 percent of students who 
receive special education services and supports are students with 
learning disabilities. This data also tells us that 80 to 90 percent of 
these students, who have learning disabilities, are referred for 
special education services because of reading difficulties, which may 
be, in many cases, preventable. Most children who are found to have a 
specific learning disability have average or better intellectual 
abilities. Therefore, we must ask, why aren't these children learning 
to grade level standards? The first reason may be low expectations. 
Another factor is the type of instruction these students receive. Are 
the instructional methods based on sound scientific evidence? Many 
times they are not. Also, who teaches children with disabilities? It 
depends upon the level of special education services and supports, but 
many children who receive special education services and supports are 
taught core academic subjects by special education teachers who do not 
have the crucial content knowledge or skills to teach core academic 
subjects. This is too often the case, even though the vast majority of 
special education students are expected to meet the same academic 
achievement standards as nondisabled students. What does the research 
tell us about students in general? It tells us that when teachers have 
knowledge and skills in the core academic subject they teach, students 
do better. Many times special education teachers may know ``how to 
teach'' but not ``what to teach.'' We believe that the lingering 
achievement gap between students with disabilities and their 
nondisabled peers is partly attributable to this lack of adequate 
training in academic content.
    The field is concerned about special education teachers not having 
enough time to meet the requirements to become highly qualified under 
the reauthorized IDEA by the end of the 2005-06 school year. I should 
point out that over the past few years the U.S. Department of Education 
has provided on-going technical assistance on the highly qualified 
teacher requirements, and has provided direct assistance to help all 
teachers who teach core academic subjects understand how the 
requirements will affect them. One significant Department initiative is 
the Teacher Assistance Corps. Established in 2003 to support States in 
their efforts to implement the highly qualified teacher requirements in 
NCLB, 45 teachers, former teachers, principals, superintendents, 
leaders from higher education, and national experts from around the 
country participated on teams led by Department of Education officials. 
During visits to every State, DC. and Puerto Rico, the Teacher 
Assistance Corps explained the provisions of the law including 
requirements for special education teachers, listened to the concerns 
of State and local officials, answered policy questions, and learned of 
unique situations in every State. Many States believed that the 
reauthorized IDEA would have different requirements or lesser standards 
for special education teachers to become highly qualified. They opted 
to ignore the NCLB requirements and waited, hoping that the 
reauthorized IDEA would eliminate or modify the requirements for 
special education teachers. As a result, some States did not take any 
steps to ensure that special education teachers would join the ranks of 
highly qualified teachers by the end of the 2005-06 school year.
    The Department has a common sense approach to the highly qualified 
teacher requirements under NCLB and worked with the Congress to provide 
additional flexibility under IDEA, where it was possible to do so 
without diminishing the quality of instruction to be provided to 
children with disabilities. Special education teachers who are already 
in the field can use the High Objective Uniform State Standard of 
Evaluation (HOUSSE), including a HOUSSE covering multiple subjects, to 
demonstrate competency in the core academic subjects they teach. 
Special education teachers who are teaching exclusively to children 
with disabilities who are assessed against alternate achievement 
standards must have subject matter knowledge at the elementary level or 
above needed to effectively teach to those alternate achievement 
standards, as determined by the State. New special education teachers 
who teach multiple core academic subjects and are highly qualified in 
mathematics, language arts or science have an additional 2 years to 
demonstrate subject mastery in other core academic subjects that they 
teach. The Department believes that it is possible for all students to 
be taught by highly qualified teachers by the deadline set forth in 
NCLB and IDEA.
    The Department has also engaged in many initiatives and activities 
specifically designed to help all teachers understand NCLB, understand 
the requirements to become highly qualified and to achieve highly 
qualified status. One very important initiative that accomplishes all 
three goals for teachers is the Teacher-to-Teacher Initiative which is 
designed to help teachers improve student achievement in several ways. 
First, the Department, as part of this initiative, sponsors Teacher-to-
Teacher Workshops which allow teachers to learn and share various best 
practices from across the country that improve student achievement. 
After an overwhelmingly positive response to the 2004's summer and fall 
workshops, the U.S. Department of Education will host summer 2005 
workshops. The Office of Special Education and Rehabilitative Services 
continues to work collaboratively with the Office of Elementary and 
Secondary Education to ensure that sessions specifically address 
teaching children who receive special education services and academic 
supports in an inclusive setting. Second, the Department provides free 
access to professional development courses on a Teacher-to-Teacher Web 
site. These e-learning modules were developed using content from the 
summer 2004 Teacher-to-Teacher Workshops. In each of these modules, 
some of the Nation's best teachers and principals share strategies for 
raising student achievement and informing teachers of the latest 
successful, research-based practices. Thirty-two States have agreed to 
allow teachers to use these modules toward points on their HOUSSE or 
recertification requirements. Third, teachers may sign up to receive 
electronic Teacher Updates from the Department on hot topics, and 
access resources that aid teachers in learning about the latest policy, 
research and professional issues affecting the classroom. Fourth, the 
Department has ongoing Teacher Roundtables on various topics during 
which senior Department officials listen to and engage teachers in 
discussions regarding teacher needs and concerns. Fifth, teachers have 
been honored by the Department through the American Stars of Teaching 
awards. Teachers, including special education teachers, who are 
improving student achievement and using innovative strategies to reach 
students have been honored. So you see, the Department has taken a 
diligent and proactive approach to help all teachers understand the 
highly qualified teacher provisions in NCLB, and provide flexibility 
and support to help all teachers become highly qualified by the 2005-06 
school year.
    With the reauthorization of IDEA, we intend to launch additional 
efforts to support special education teachers' understanding of what 
highly qualified means for them. We at the Department are pleased that 
the reauthorized IDEA affirms the highly qualified teacher requirements 
set forth by NCLB, with some additional flexibility. It's simple. All 
students need and deserve highly qualified teachers, especially 
students who have disabilities. Parents want highly qualified teachers 
for their children. The Department knows that requiring all teachers to 
be highly qualified is the right thing to do for our children.

    Senator Alexander. Why don't we start with Mr. Langham and 
just go right around the table. Each of you take about 3 
minutes, say what is on your mind. We have statements that you 
have presented. We will read those very carefully. And then we 
will ask the Senators to ask some questions and you may have 
questions of one another. Mr. Langham?
    Mr. Langham. It is a pleasure to be here today, and as I 
said in my statement, the NCLB IDEA highly qualified special 
education teacher criteria certainly, I know in our own school 
system, offers a rewarding challenge.
    These requirements in the day-to-day, when originally 
presented to our special education teachers, to be truthful, 
were greeted with some dismay as far as that lack of 
understanding how this will work, how we will actually achieve 
this, and as a school system leader, certainly I share in those 
concerns.
    However, we have chosen to focus on the positive side of 
these challenges, and first of all, I can't speak highly enough 
of our own Alabama State Department of Education and the 
outstanding assistance that we receive from them on a daily 
basis. Their efforts are reflected in all school systems 
throughout the State in helping us meet these challenges.
    On a personal example, just a few weeks ago, the State 
Director of Special Education Services, knowing some of our 
needs and questions, rearranged his entire schedule just to 
come and to sit down with many of our school administrators to 
address some of these requirements and to help settle some of 
the concerns in the minds of many of our school administrators. 
And certainly our own Alabama State Department of Education is 
keeping a very steady and user-friendly flow of information as 
well as plenty of hands-on technical assistance to help us 
navigate these requirements, so we are very grateful. They have 
taken a lot of the mystery out of some of our concerns there.
    Another very rewarding side we have seen of these 
requirements are that our special education personnel have had 
to rethink and reengineer the way that we deliver special 
education services in our school system. Even though inclusion 
has been a vital part of our program for several years, we 
found that these requirements have caused us to strengthen our 
delivery process. They have certainly caused many of our 
administrators to become more engaged in the process of 
delivery of special education services in our schools.
    We have seen more nontraditional settings, team teaching, 
collaborative teaching, consultive teaching being set up 
through this, and certainly we are very encouraged about the 
synergy that we see between the regular education and the 
special education teachers at our school. We are seeing a lot 
of natural support networks that are being set up and seeing 
benefits as far as what happens when our students have the 
benefit of the expertise of two or more teachers coming 
together in a team-like approach.
    Certainly, many of our students are demonstrating 
heightened self-esteem and achievement is certainly showing 
some measurable growth at this point.
    Our teachers are becoming more involved with research-based 
methodologies that benefit all students, so those HQT 
requirements are having an impact across the board there.
    We have had to revisit as a school system our outmoded, 
outdated scheduling strategies to the benefit of all students, 
and working cooperatively, our school system is providing 
reimbursement to teachers, including special educators, who 
take coursework or tests to meet HQT requirements.
    But certainly, as I said, this is a rewarding challenge. 
Funding is always an issue, particularly as it relates to 
staffing to monitor this process. The old adage says, you don't 
respect what you don't inspect, and so certainly, we are seeing 
early on the need for additional personnel to coordinate and 
monitor these activities as well as to help with the scheduling 
and other technical assistance.
    And certainly, as we pointed out, we are seeing the problem 
in our middle and junior high and senior high levels of having 
to exceed class counts and causing an overload in some of our 
classrooms due to some of these requirements.
    Senator Alexander. Mr. Langham, we want to try to keep 
everybody to 3 minutes, if we can at this stage, so if you 
could wrap up a little bit and then we will move on to the next 
person.
    Mr. Langham. And this is my wrap-up. I will certainly say 
that the journey ahead will--there is much optimism on our 
part.
    Senator Alexander. Thank you very much, and we will 
hopefully have a chance to come back.
    [The prepared statement of Mr. Langham follows:]

                   Prepared Statement of Jeff Langham

    The NCLB/IDEA Highly Qualified Special Education Teacher (HQT) 
criteria offer teachers a ``rewarding challenge.''
    The NCLB/IDEA standards indisputably have positive intents. 
Students with disabilities are expected to meet the same academic 
standards as all other students. Teachers who deliver instruction to 
students with disabilities are required to meet the same standards for 
content knowledge as general education teachers. Who can argue with 
such noble intents?
    Nevertheless, these requirements are not without their share of 
challenges. In our school system, tremendous apprehension and dismay 
surrounded the announcement that teachers teaching multiple core 
academic subjects would be required to meet the NCLB/IDEA HQT 
definition. Many of our high school teachers were reeling from what 
seemed to them to be an overwhelming requirement. As the school system 
leader, I have shared in their concerns.
    However, as a school system, we have chosen to focus on the 
positive, even rewarding side, of these challenges.
    First of all, our difficult task in meeting these requirements are 
less burdensome thanks to the outstanding assistance we received from 
the Alabama State Department of Education. The Department has taken a 
proactive approach in assisting our school system, as well as all 
Alabama school systems, in meeting these challenges.
    Dr. Mabrey Whetstone, State Director of Special Education Services, 
recently dropped everything to arrange an impromptu meeting to address 
the concerns of many of our administrators regarding the HQT Special 
Education requirements. Moreover, the Alabama State Department of 
Education keeps a steady and user-friendly flow of information, as well 
as hands on technical assistance, coming into our school system to help 
us navigate these requirements.
    Another reward that has surfaced as a result of the IDEA HQT 
challenges is that our personnel have had to rethink and reengineer the 
way we deliver special education services in our school system. Even 
though inclusion has been a vital part of our program for the past 
several years, the HQT requirements have caused us to strengthen our 
delivery process. In meeting these requirements, our administrators 
have become more engaged in the process of special education services.
    Non-traditional settings including team teaching, collaborative 
teaching, and consultative teaching, while challenging to implement, 
have bolstered our special education services. These are creating a 
synergy between our regular education and special educators. Natural 
support networks are being fostered between children and the staff. We 
are seeing that all students benefit from the strength of two teachers 
who represent different educational standards. Students with 
disabilities taught in regular classes are demonstrating heightened 
self-esteem and achievement is demonstrating measurable growth.
    Other rewards due to these criteria included the following: Our 
teachers are becoming more involved with research-based methodologies 
that benefit all students. As a school system, we have had to revisit 
our outmoded, outdated scheduling strategies to the benefit of all 
students. The Elmore County school system is providing reimbursement to 
teachers, including special education, who take coursework or tests to 
meet HQT status.
    However, it is important to realize that even though we are 
choosing to focus on the rewards, in the day-to-day operations of our 
schools, these requirements are first and foremost, enormously 
challenging.
    As always funding is an issue, particularly funding as it relates 
to staffing to monitor this process. The old adage states, ``You don't 
respect what you don't inspect.'' Indeed, we need additional personnel 
to coordinate and monitor these activities as well as to help with 
scheduling and teacher assistance and consultation. Yet another 
challenge is that these requirements are going to cause some of our 
schools, particularly at the junior and senior high levels, to exceed 
class size caps and cause an overload in some of our classrooms at the 
junior high/senior high level. We are also challenged by the fact that 
we are seeing our pool of special education teacher candidates diminish 
every year.
    Nevertheless, the bottom line is that the positive rewards 
outnumber the challenges we are facing. Already we are seeing 
incremental increases in student achievement directly related to the 
IDEA HQT criteria. Though the journey ahead will not be easy, our 
school system will continue to search for avenues and opportunities to 
provide excellence in education for each and every student.

    Senator Kennedy. Mr. Chairman?
    Senator Alexander. Yes, sir?
    Senator Kennedy. Could I just point out, according to the 
National Council on Teacher Quality, Alabama is one of the 
highest in terms of its valuation of its HOUSSE project. It is 
one of the leading States in the country on it, so I want to 
congratulate what you have been doing.
    [Laughter.]
    Senator Alexander. Thank you.
    Senator Kennedy. Had Massachusetts started on----
    [Laughter.]
    Senator Alexander. Again, thank you, Senator Kennedy.
    Mr. McLeskey?
    Mr. McLeskey. Thank you, Senator Alexander. I would like to 
begin by expressing my appreciation to the HELP Committee and 
to Congress for working to ensure that every student with a 
disability has a highly qualified teacher. As all of us here 
today are well aware, the quality of the student's teacher 
contributes more to achievement outcomes than any other factor, 
including class size, class composition, and student 
background. Moreover, if we are to hold students with 
disabilities to high accountability standards, they must have 
highly qualified teachers to meet these standards.
    For too many years, large numbers of special education 
teachers have not been highly qualified, as we all know. 
Indeed, data from 2002-03 school year indicate that over 53,000 
special education teachers teaching over 900,000 students with 
disabilities were not certified in special education. Having a 
highly qualified teacher for every student with a disability 
should go a long way to closing the achievement gap that 
currently exists for these students. I applaud the HELP 
Committee and the Congress for boldly addressing this very 
important issue, an issue that most States have not been 
successful in addressing for at least the last 20 years.
    From my perspective, there are several issues that need to 
be addressed to ensure a highly qualified teacher for every 
student with a disability. I will mention three of those 
briefly now, and hopefully we will have time to talk about more 
of them later on in the roundtable discussion.
    First, it seems to me that it is important we learn from 
States and local school districts that have successfully 
addressed this issue. Alabama, we talked about that earlier, is 
certainly one of those. I have seen HOUSSE guidelines for 
Maryland. Florida has been aggressively addressing this issue, 
and a number of States--Tennessee, I have heard, has also been 
aggressively addressing the issue, so I think it is important 
to learn from States that have been successful in addressing 
the HOUSSE guidelines and the highly qualified issues and learn 
from those States.
    Second, we must recognize, as Jeff said earlier, that the 
approach local school districts and secondary schools take to 
service delivery significantly influences the number of 
secondary special education teachers who are highly qualified 
in content areas. In Florida, one large district has over 500 
special education teachers who are not highly qualified in 
subject areas they teach, while another large district has no 
such teachers. This difference is, I am sure, influenced by how 
these districts decide to deliver services to students with 
disabilities, using collaborative models, as my colleague from 
Alabama mentioned earlier. This is obviously a key issue that 
we must recognize and address.
    Finally, as I mentioned previously, most States have not 
been able to address the need for highly qualified special 
education teachers as shortages have existed for at least the 
last 20 years. States need Federal support if they are to 
successfully produce sufficient numbers of highly qualified 
teachers. For example, there is currently a shortage of teacher 
education faculty of institutions of higher education that 
produce teachers, and many faculty positions are going 
unfilled. There also is a need to increase the supply of 
special education teachers through incentives for those 
entering the profession.
    I have included, Senator Alexander, with my statement today 
a copy of a proposed amendment to the Higher Education Act that 
the Kennedy Foundation and Ms. Shriver put forth that I would 
certainly recommend consideration for the committee as a 
beginning to address these issues of the teacher shortage as 
well as the shortage of higher education personnel. Thank you.
    Senator Alexander. Thank you very much, Mr. McLeskey.
    [The prepared statement of Mr. McLeskey follows:]

              Prepared Statement of James McLeskey, Ph.D.

    I'd like to begin by expressing my appreciation to the HELP 
Committee and the Congress for working to ensure that every student 
with a disability has a highly qualified teacher. As all of us here 
today are well aware, the quality of a student's teacher contributes 
more to achievement outcomes than any other factor, including class 
size, class composition, or student background. Moreover, if we are to 
hold students with disabilities to high accountability standards, they 
must have highly qualified teachers if they are to meet these 
standards.
    For too many years, large numbers of special education teachers 
have not been highly qualified. Indeed, data from the 2002-03 school 
year indicate that over 53,000 special education teachers, teaching 
over 900,000 students with disabilities were not certified in special 
education. In addition, data from the 1999-2000 Schools and Staffing 
Survey reveal that among secondary special education teachers who teach 
students with disabilities in the areas of English, Mathematics, 
Science, and Social Studies, from 82-99 percent were not highly 
qualified in the subject matter that they taught.
    Having a highly qualified teacher for every student with a 
disability should go a long way toward closing the achievement gap that 
currently exists for these students. I applaud this committee and the 
Congress for boldly addressing this very important issue, an issue that 
most States have not been successful in addressing for at least the 
last 20 years.
    From my perspective, there are several issues that need to be 
addressed to ensure a highly qualified teacher for every student with a 
disability. I'll mention three of those issues, now, and hopefully 
we'll have time to discuss additional recommendations later in this 
roundtable.
    First, we must learn from States and local school districts that 
have successfully addressed this issue. Data from 2002-03 reveal that 
all special education teachers were certified in Connecticut. Many 
other States had very low proportions of special education teachers who 
were not certified (i.e., Alabama, Alaska, Illinois, Mississippi, 
Nebraska, North Dakota, Oklahoma, Pennsylvania, Tennessee, Washington, 
and Wisconsin). These States have shown us that it is possible to 
provide highly qualified teachers for students with disabilities. We 
need to better understand what these States have done to address the 
special education teacher shortage.
    Second, we must recognize that the approach local districts and 
secondary schools take to service delivery significantly influences the 
number of secondary special education teachers who are highly qualified 
in content areas. In Florida, one large district has over 500 special 
education teachers who are not highly qualified in the subject areas 
that they teach, while another large district has no such teachers. 
This difference is produced, I am sure, by how these districts decide 
to deliver services to students with disabilities. This is a key issue 
that we must recognize and address.
    Finally, as I mentioned previously, most States have not been able 
to address the need for highly qualified special education teachers, as 
shortages have existed for at least the last 20 years. States need 
Federal support if they are to successfully produce sufficient numbers 
of highly qualified teachers. For example, there is currently a 
shortage of teacher education faculty in Institutions of Higher 
Education that produce teachers, and many faculty positions are going 
unfilled. There also is a need to increase the supply of special 
education teachers through incentives for those entering the 
profession. I've included with my statement a copy of a proposed 
amendment to the Higher Education Act, written by Mrs. Shriver, which 
begins to address this need.
    Elaboration of the preceding recommendations as well as additional 
recommendations for ensuring that all students with disabilities have 
highly qualified teachers include the following:
    <bullet> State Departments of Education have many requirements for 
approving teacher education programs in Colleges of Education that make 
offering alternative teacher education programs difficult, if not 
impossible for many Institutions of Higher Education (IHEs). State 
Departments of Education need to address these issues, and ensure that 
IHEs can develop high quality, fast track, alternative programs to 
certify special education teachers.
    <bullet> Support is needed from the U.S. Department of Education 
and other Federal agencies to ensure that all students with 
disabilities have highly qualified teachers. The proposed amendment to 
the Higher Education Act (proposed by Mrs. Shriver), ``The Ensuring 
Highly Qualified Special Education Teachers Act of 2005'' is a good 
start in addressing this issue. Additional funding for Part D of the 
Individuals with Disabilities Education Improvement Act to support 
personnel preparation is also needed.
    <bullet> Support is needed to ensure an adequate supply of doctoral 
level leadership personnel (i.e., college faculty) to produce highly 
qualified teachers. Providing additional funding to support leadership 
programs as part of Part D of IDEA, and supporting the proposed 
amendment to the Higher Education Act, ``The Ensuring Highly Qualified 
Special Education Teachers Act of 2005'' is a good start in addressing 
this issue.
    <bullet> Very little research has been conducted regarding teacher 
education and special education. We need to study a range of issues 
such as: the effect of different routes to certification (i.e., 
traditional institution of higher education based programs, alternative 
certification programs, ``test only'' routes to certification) on 
student outcomes; factors influencing teacher attrition and teacher 
retention; critical elements of teacher education programs that produce 
effective teachers; teacher induction and mentoring; and many more. 
Funding through the Office of Special Education Programs and Institute 
for Educational Sciences should be provided to study these critical 
issues.

    Senator Alexander. Ms. Baglin?
    Ms. Baglin. Thank you. Good afternoon. It may not look like 
it, but I am here today representing over 80 years of 
experience in special education.
    [Laughter.]
    My mother graduated from Rochester Normal School and she 
was a teacher for over 40 years. At 89 years of age, she still 
likes to say she came from the era when every teacher was a 
special education teacher. I, on the other hand, have only 
experience limited to special education and early childhood, as 
I was the State Director for Infants and Toddlers in Maryland 
and now for Special Education.
    With that experience in mind, I am here to advocate for the 
provisions linking highly qualified teacher requirements and 
the field of special education. These provisions represent the 
quintessential opportunity for us to finally have 
individualized and differentiated instruction that is linked 
effectively with good content. This approach will do much on 
behalf of students with disabilities to, in fact, narrow the 
achievement gap with their nondisabled peers.
    The challenges for us and the States, however, are very 
significant. Maryland employs over 7,700 special education 
teachers to provide special education to nearly 113,000 
students ages 3 to 21. Of these teachers, nearly 6,200 are 
fully certified, but we do not yet know how many are considered 
to be highly qualified. Statewide, nearly 67 percent of all of 
our core academic subjects are taught by highly qualified 
teachers during the year 2003-04. We did not have our special 
education HOUSSE in effect at that time.
    Maryland has a long history of requiring the participation 
of all students with disabilities in our State accountability 
programs since 1990, including our severely disabled students, 
but there has always been a disconnect during that time period 
in what special education teachers have been able to adequately 
address in terms of instruction for these students. The 
requirements and the linkage of NCLB and IDEA for the first 
time provide the necessary linkage of pedagogy and the content 
knowledge that we need to close the gap.
    Maryland has taken a very rigorous approach to examining 
these requirements and is implementing a wide range of options 
for professional development and teacher support. We are very 
proud of our HOUSSE and we think it presents an opportunity for 
the current workforce who are employed through a combination of 
coursework, teaching experience, professional development, and 
other related activities, including participating in tests for 
endorsements in those areas. We also have a resident teacher 
certificate program for teachers who are employed that come 
from other fields and will end up, when they finish this 
program, as duly certified.
    We are working cooperatively and hope to encourage higher 
education to step up to the challenge to increase the pool of 
highly qualified new teachers and to restructure their programs 
of preparation. Many of their existing programs continue to 
turn out people who are certified in special education but will 
not be highly qualified when they enter the classroom.
    With the growing problem that we have in our State of 
teacher retention and an aging workforce, we are looking for 
additional support, help, and perhaps an increased time so that 
our special education teachers can, in fact, be highly 
qualified. Thank you.
    Senator Alexander. Thank you.
    [The prepared statement of Ms. Baglin follows:]

                 Prepared Statement of Carol Ann Baglin

    Good afternoon Senator Alexander and members of the subcommittee. I 
welcome this opportunity to speak with you about the importance of 
supporting a highly qualified workforce on behalf of students with 
disabilities. I have been privileged to administer early intervention 
and special education services in Maryland since 1987, both as the 
State Director for Infants and Toddlers and State Director for Special 
Education. More importantly, I have worked in local school systems as 
an instructional assistant, a teacher, and a local director since 1971, 
and experienced the growth of this profession over these past 35 years.
    The State of Maryland has required the participation of students 
with disabilities in our State accountability system since the early 
1990s. There has been a disconnect in that special education teachers 
have been in many cases not able to adequately address the 
instructional demands related to this increased accountability, and the 
related requirements for access to the general education curriculum. 
For many years I have been an apologist for our teachers as 
increasingly the instructional side of education asked for content 
skilled special education teachers to participate in the development of 
content level standards and professional training opportunities.
    The fact that the Federal No Child Left Behind Act (NCLB), enacted 
in January 2002, requires that all teachers be ``highly qualified'' by 
July 1, 2006, if teaching in core academic subjects (CAS), enhances our 
standing as instructional professionals and members of a team that can 
make the difference for students with disabilities. Too long have we 
neglected to address meaningful grade level content by applying our 
unique skills in differentiating instruction for students with complex 
learning needs.
    As you know NCLB requires that all teachers of core academic 
subjects be ``highly qualified'' by the conclusion of the 2005-06 
school year. Each school system, along with the State, must report 
annually the percentage of classes taught by teachers who are not 
``highly qualified.'' Although special education is not defined in the 
law as a core content area, teachers of students with disabilities must 
be competent in the content they teach. Therefore special education 
teachers must meet the highly qualified teacher requirements as 
outlined in NCLB and incorporated in the Individuals with Disabilities 
Education Act 2004 (IDEA 2004).
    Maryland employs over 7,700 special education teachers to provide 
special education to nearly 113,000 students, ages 3 to 21. Of these 
teachers, nearly 6,200 are fully certified but we do not yet know how 
many are considered highly qualified as well. Statewide nearly 67 
percent of all core academic subjects were taught by highly qualified 
teachers, during 2003-04. Maryland has taken the reporting requirements 
as an important component of our overall professional development 
approach and we believe a vigorous approach in determining how to 
implement this requirement will ensure a qualified workforce.
    In Maryland, the largest workforce that needed immediate guidance 
to comply with the NCLB was comprised of special educators already 
serving students in Maryland's public school classrooms. To assist 
these teachers in achieving ``highly qualified'' status, the Maryland 
State Department of Education (MSDE) created a single document that 
will give teachers the information they need to interpret the 
requirements of High Objective Uniform State Standard of Evaluation 
(HOUSSE); assess their credentials, course work, experience, and 
professional activities; complete the HOUSSE rubric to achieve ``highly 
qualified'' status; and submit their completed rubrics to human 
resources officials in local school systems.
    For teachers who achieve ``highly qualified'' status as a result of 
holding a particular Maryland certificate in the core academic subjects 
they are teaching, no further action is necessary. Since special 
education is not a core academic subject, special educators must be 
highly qualified in the core content they teach.
    To achieve ``highly qualified'' status, teachers new to the 
profession (without verifiable teaching experience prior to the first 
day of the 2002-03 school year) may have different requirements than 
those who are not new teachers.
    Maryland's HOUSSE requires that teachers obtain 100 points on a 
specially designed rubric entitled, Achieving ``Highly Qualified'' 
Status Under No Child Left Behind (NCLB), A guide for Maryland 
Teachers, Using Maryland's HOUSSE, High, Objective, Uniform State 
Standards of Evaluation, March 2005.
    The options for obtaining points in Maryland's HOUSSE for Special 
Education Teachers consist of some combination of obtaining National 
Board Certification in Special Education, holding a Standard 
Professional Certificate or Advanced Professional Certificate in 
combination with the following:
    <bullet> Course work in core academic subject area
    <bullet> Years of satisfactory teaching experience
    <bullet> Continuing professional development
    <bullet> Activities, service, awards and presentations
    Maryland also allows teachers already holding a Standard 
Professional Certification to take content area tests to prove 
competence in CAS area.
    The Maryland State Department of Education and the Maryland Higher 
Education Consortium are currently developing an Associates in Arts and 
Teaching Decree in Special Education for community colleges that would 
begin a path to a 2-year completer program into the 4-year Institutions 
of Higher Education. This degree would provide special educators with 
the content work necessary to be highly qualified.
    Many challenges remain to ensure a qualified teaching staff. The 
engagement of institutions of higher education (IHEs) in support of 
these efforts is critical. Without the increased engagement of these 
institutions in redesigning and significantly updating their programs, 
we cannot meet the workforce needs of special education. Also 
significant will be the support of local school systems in providing 
flexibility and funding to existing staff to obtain additional 
coursework and to provide the necessary incentives to increase 
retention within the field.
    Many school systems are utilizing special education teachers to 
provide consultation to general education teachers to assist by 
providing strategies for individualizing the curriculum, behavioral 
interventions, modifications to materials, and implementation of 
accommodations. In Maryland, the most effective overall model for 
improvement of student achievement for special education students has 
been the practice of co-teaching with the general education content 
teacher. These models require additional time for planning and 
flexibility in scheduling within schools.
    The benefits of a vigorous system of instructional accountability 
combined with a qualified workforce will ensure that students with 
disabilities have the opportunity to fully participate in our 
educational systems. The challenges of NCLB and IDEA provide 
opportunities for those of us who for many years have aspired to 
creating a robust and responsive educational environment within special 
education.

    Senator Alexander. We will now go to Bill Connolly. Senator 
Dodd may not--this is a busy day in the Senate. He may not be 
able to be here, so I will give you another introduction and 
say we are glad that you are here. You have had a variety of 
teaching responsibilities. As I understand it, now you are the 
reading teacher in a team of five----
    Mr. Connolly. Special education teachers, yes.
    Senator Alexander. [continuing.]--five special education 
teachers dealing with children with very specific disabilities, 
is that correct? We thank you for coming.
    Mr. Connolly. Good afternoon, Chairman Alexander, Ranking 
Member of the Subcommittee. Thank you for inviting me here 
today. My name is Bill Connolly. I have been a special 
education teacher since 1976. I hold a B.A. degree in 
psychology, Master's degrees in special education and 
curriculum and supervision. I also have a comprehensive special 
education certification covering grades pre-K through 12, a 
social studies certification in grades 7 through 12, and a 
certification in curriculum and supervision.
    My teaching experience has been diverse. For 3 years, I 
taught all subjects in a self-contained classroom. For the next 
13 years, I taught math to special education students grades 7 
through 12. Finally, for the last 12 years, I have taught 
reading to special education students at the Quirk Middle 
School in Hartford, CT.
    I believe I am qualified to teach my students based on 
evaluations, my students' progress, and my 2 decades of 
experience in the classroom. However, it may take more than 
this to certify that I am highly qualified under NCLB.
    I am now going to try to explain as best as I am able what 
I believe the process is for me to be deemed highly qualified. 
I found the information provided me to be confusing, at best.
    In the spring of 2003, we were given a letter from the 
Connecticut Department of Education with an update on NCLB. 
This was the first time I learned of the highly qualified 
requirement for teachers. The letter provided general 
information. I figured additional information specific to my 
teaching situation would be provided by my State or district. 
However, nothing was forwarded.
    In May 2004, I did some of my own research on the subject. 
I learned that as a special education teacher instructing a 
content area, I could prove my competence if our district's 
evaluation met the standards set forth in NCLB's HOUSSE.
    I began to inquire if Hartford's evaluation would qualify. 
I asked people in all positions. Most did not know the answer. 
A few responded positively. Again, I concluded that if the 
standards for my employment were changing, I would be told 
formally and then be given an opportunity to demonstrate my 
qualifications.
    Some of the best information about what may be required of 
me came from my union. In March 2005, I attended a workshop 
sponsored by my union that covered the IDEA reauthorization. We 
were told that more information would be forthcoming about the 
HOUSSE and the recent changes made to IDEA. However, while 
school districts are in the process of translating how these 
recent changes will impact special education teachers, many of 
these teachers have not yet been given appropriate guidance.
    It is very clear that I am picking up bits and pieces of 
what the law expects of me. I have had discussions with 
colleagues about this certification issue. Most are unaware of 
the changes. I would venture to say that many veteran teachers 
believe they are well qualified and assume they will be 
grandfathered and thus meet the NCLB requirements.
    The deadline for meeting these new requirements is rapidly 
approaching and teachers are very worried that they won't have 
time to meet them, or are unaware that they exist. I am 
genuinely concerned this confusion is likely to exacerbate the 
already serious shortage of special education teachers.
    I am told that some in Congress understood the relatively 
short time that some special education teachers would have to 
demonstrate their qualification and that they tried to provide 
additional time to do so. I only wish they had succeeded in 
light of the great confusion that exists in the field today.
    Thank you, Mr. Chairman, for the chance to talk about this 
important issue from the perspective of teachers, and I welcome 
any questions that you may have.
    Senator Alexander. Thank you, Mr. Connolly, and thank you 
for coming.
    [The prepared statement of Mr. Connolly follows:]

                 Prepared Statement of William Connolly

    Good Afternoon, Chairman Alexander, Ranking Member Dodd and members 
of the subcommittee. My name is Bill Connolly. I have been a special 
education teacher since 1976. I hold a bachelor of arts degree in 
psychology, a master's degree in special education, and a 6-year degree 
in curriculum and supervision. I also have a comprehensive special 
education certification (pre-K-12), a social studies certification 
(grades 7-12) and a certification in curriculum and supervision.
    My teaching experience has been diverse. In my first 3 years, I 
taught in a self-contained classroom for intellectually disabled 
adolescents. In 1980, I began to teach in the Hartford Public Schools. 
For 13 years I taught mathematics to seriously emotionally disturbed 
students, grades 7-12, with abilities ranging from second to twelfth 
grade.
    For the last 12 years, I have been working in a mainstream middle 
school in Hartford. I am the reading teacher on a five-person team of 
special education teachers. We teach 55 students, the majority having 
specific learning disabilities. The academic abilities of the students 
range from first to third grade, depending on the content area.
    I believe I am qualified to teach my students based on my 
evaluations, my students' progress, and my 2 decades of experience in 
the classroom. However, it may take more than this to certify that I am 
highly qualified under the No Child Left Behind (NCLB) Act. Depending 
on my year-to-year assignment, my teaching role may change. If the 
district's staffing needs change, I could possibly be assigned to teach 
in a self-contained classroom and have to teach multiple subjects.
    I'm now going to try to explain, as best as I am able, what I 
believe the process is for me to be deemed highly qualified. I've found 
the information provided to me to be confusing at best. In the spring 
of 2003, we were given a letter from the Connecticut Department of 
Education with an update on NCLB. This was the first time I read or 
heard about the highly qualified requirement for teachers. The letter 
provided general information, and I figured additional information 
specific to my teaching situation would be provided by the State or my 
district. However, nothing was sent to me. In May 2004, I decided to do 
some research on the Internet to investigate the concept of highly 
qualified teachers in special education. I found out that as a special 
education teacher instructing in a content area, I could prove my 
competence if our district's evaluation met the standards set forth 
under the ``Highly Objective Uniform State Standard of Evaluation'' 
(HOUSSE) included in NCLB.
    So, I began to investigate if Hartford's evaluation would qualify 
as a HOUSSE. I asked people in all positions; most did not know the 
answer. I did get a few positive responses from people who know the 
evaluation process. Again, I concluded that if the standards for my 
employment were changing, I would be told formally and then be given an 
opportunity to demonstrate my qualifications. Some of the best 
information about what may be required of me came from my union. In 
March 2005, I attended a workshop sponsored by my union that covered 
the reauthorization of the Individuals with Disabilities Education Act 
(IDEA). Certification issues for special education teachers were 
discussed. We were told that HOUSSE was still a work in progress in 
Connecticut and that more information would be forthcoming. The 
reauthorization of IDEA provided additional avenues for certain special 
education teachers who may be teaching in more than one content area to 
meet the requirements of NCLB. However, a road map for getting there 
has not been provided.
    It is clear to me that I am picking up bits and pieces of what the 
law expects of me. I have had discussions with colleagues about this 
certification issue. Most are unaware of the changes. I would venture 
to say that most veteran teachers believe they are well qualified and 
may be assuming they will be ``grandfathered'' and thus meet the NCLB 
requirements.
    Apparently, school districts and States have been waiting to see 
whether IDEA would make changes in the highly qualified requirements 
for special education teachers, and districts have not been getting the 
information out to their teachers.
    The deadline for meeting these new requirements is rapidly 
approaching and teachers are very worried that they won't have time to 
meet them. I am genuinely concerned that the confusion being 
experienced by me and my colleagues as we seek answers to these 
questions is likely to exacerbate the already serious shortage of 
special education teachers.
    I am told that some in Congress understood the relatively short 
time that certain special education teachers would have to demonstrate 
their qualifications and that they tried to provide additional time to 
meet these requirements. I only wish they had succeeded, in light of 
the great confusion that exists in the field today.
    I want to pose a few questions in my closing remarks.
    <bullet> What exactly do I have to do by the end of the next school 
year to demonstrate I am highly qualified using the HOUSSE option?
    <bullet> Will I have sufficient time to meet the requirements?
    <bullet> What will the consequences be to me if I do not prove 
myself to be highly qualified?
    My colleagues and I are all dedicated teachers who want to do what 
is right for our students. I know that the clock is ticking to meet 
these requirements. We want to ensure that we are able to continue 
teaching students and are given the opportunity to do so.
    Thank you again, Mr. Chairman and Ranking Member Dodd, for the 
chance to talk about this important issue from the perspective of 
teachers. I would like to invite you to come visit me--or teachers in 
your district--in the classroom. We are hard at work every day trying 
to meet the admirable goals of IDEA. I welcome any questions that 
members of the committee may have in regard to my statement.

    Senator Alexander. Lana Seivers?
    Ms. Seivers. Senator Alexander, Senator Kennedy, Senator 
Sessions, thank you for the opportunity to be here today. I was 
appointed Commissioner of Education in Tennessee in January 
2003, so we hit this topic head-on pretty quickly. I come to 
you today not just because I am Commissioner, but because I am 
a former special educator and because I am the mother of a son 
who has multiple disabilities, so it is more of a personal 
issue for me than a professional one.
    I think it is important that children with disabilities be 
taught by the most qualified teachers with one goal in mind: 
Improved student performance at whatever level that might be 
for each individual child.
    First, let me commend Congress, the Department of 
Education, and Secretary Spellings for giving States the 
flexibility to use the HOUSSE option to assist our special 
education teachers. We have done this in Tennessee since 2003 
and we hope we have communicated well with the teachers how 
they can use this to their advantage so that they can become 
highly qualified by 2006.
    Currently in Tennessee, almost 600 of approximately 6,000 
special education teachers are teaching on permits or waivers. 
This may appear to be a shortage of licensed special education 
teachers, but, in fact, it isn't. There are enough licensed 
special education teachers to fill these classroom positions, 
but many of these professionals have chosen to leave this 
field. They tell us it is largely because of burdensome 
paperwork, because of the technicality of the processes 
involved, that they get farther and farther away from children. 
I am afraid if States aren't careful in how we assist our 
teachers, that the highly qualified requirement may serve as a 
disincentive for special educators to remain in those 
classrooms.
    In order to help our teachers comply with the highly 
qualified teacher requirement, in Tennessee, we have taken 
advantage of the flexibility offered. Special education 
teachers can achieve highly qualified status in the same manner 
as a general education teacher. In addition to an academic 
major or degree in core subject area or national board 
certification, Tennessee teachers can become highly qualified 
through one of four HOUSSE options.
    The first is testing. We have required NTE or Praxis exams 
for licensure since 1984 and content specialty exams since 
1987. The number of required tests has steadily increased, and 
all new graduates will enter the profession highly qualified in 
at least one core academic subject area by virtue of these 
exams.
    The second is a professional matrix. This enables teachers 
to accumulate points for a variety of professional competencies 
related to the content area and teaching skills. The 100-point 
matrix emphasis content area and includes categories such as 
teaching experience, evaluations, including career ladder, 
college coursework, awards, publications, professional 
leadership, and professional development.
    The third is teacher effect. This is a statistical means of 
estimating the teacher's impact on student achievement or 
learning. It is produced as a component of the Tennessee Value-
Added Assessment System, TVAAS. The analysis of teacher effect 
data is based upon a 3-year average of improvement in student 
achievement for all students in a specific content area, and 
this has been lauded by Ed Trust.
    Last is the teacher framework for evaluation and 
professional growth, and the instrument is based upon the 
essential ingredients of quality teaching with a strong 
emphasis on content knowledge. It also looks at pedagogy and 
the ability to measure learning.
    While this flexibility is very helpful to us, teachers who 
teach multiple subjects are required to demonstrate highly 
qualified status in each of the subjects taught if they teach 
grades 7 through 12. Thus, some feel that the requirements for 
special education teachers are more rigorous than for general 
education. To obtain a Tennessee special education license, 
teachers must complete 24 to 43 semester hours in special 
education in addition to the general education curriculum.
    We believe the process should also allow special education 
teachers to demonstrate competencies commensurate with the 
needs of students in their classrooms. For example, teachers of 
students with severe cognitive disabilities should be 
considered highly qualified by meeting our State's requirements 
for a special education license. By completing additional 
special education coursework and successfully passing the 
teachers' licensing exam, they demonstrate the subject area 
knowledge sufficient to effectively provide the level of 
instruction appropriate for students like my son.
    It is our understanding that the HOUSSE option----
    Senator Alexander. I am going to be accused of favoritism 
if I let you go on too far.
    Ms. Seivers. If you let me go on? I will wrap it up.
    [Laughter.]
    I think the HOUSSE option does help, but we think it needs 
to be extended, especially for teachers who might be 
reassigned.
    Senator Alexander. I am going to come back to you with my 
question here in a minute, Lana, so thank you very much.
    [The prepared statement of Ms. Seivers follows:]

                 Prepared Statement of Lana C. Seivers

    Senator Alexander and members of the subcommittee, I am pleased to 
have this opportunity to discuss with you the highly qualified 
standards for special education teachers. This topic is important to me 
not just in my role as Tennessee Commissioner of Education, but as a 
former special educator and especially as the mother of a son who has 
multiple disabilities. It is imperative that our children with 
disabilities be taught by the most qualified teachers with one goal in 
mind: improved student performance, at whatever level that might be for 
each individual child.
    First, let me commend the U.S. Department of Education and 
Secretary Spellings for giving States the flexibility to establish a 
Highly Objective Uniform State Standard of Evaluation (HOUSSE) for 
special education teachers who teach multiple subjects or students who 
take alternative assessments.
    Currently in Tennessee, almost 600 of approximately 6,000 special 
education teachers are teaching on permits or waivers. This may appear 
to be a shortage of licensed special education teachers, but in fact, 
it is not.
    There are enough licensed special education teachers to fill these 
classroom positions, but many of these professionals have chosen not to 
teach special education. They tell us they leave largely because of 
burdensome paperwork, and unfortunately, the highly qualified 
requirements have the potential to serve as a disincentive for our most 
effective teachers to remain in our special education classrooms.
    In order to help special education teachers comply with the highly 
qualified teacher requirement by the ``05-06'' school year, we have 
taken advantage of the flexibility offered. Special education teachers 
can achieve ``highly qualified'' status in the same manner as a general 
education teacher. In addition to an academic major, a degree in the 
core subject area, or National Board Certification by the National 
Board for Professional Teaching Standards, Tennessee teachers can 
become highly qualified through one of four (4) options:

1. Testing

    The State has required NTE/Praxis Exams for licensure since 1984 
and content specialty exams since 1987. The number of required tests 
has steadily increased over the years, and all new graduates will enter 
the profession highly qualified in at least one core academic subject 
area by virtue of their licensure exams.

2. Professional Matrix

    This enables teachers to accumulate ``points'' for a variety of 
professional competencies related to the content area and teaching 
skills. The 100-point Professional Matrix emphasizes content area and 
includes categories such as: teaching experience; positive evaluations, 
including Career Ladder; college coursework; honors, awards, and 
publications; professional leadership; and professional development.

3. Teacher Effect

    This is a statistical means of estimating the teacher's impact on 
student achievement or learning, produced as a component of the 
Tennessee Value-Added Assessment System (TVAAS). The analysis of 
teacher effect data is based upon a 3-year average of improvement in 
student achievement for all students in a specific content area.

4. Teacher Framework for Evaluation and Professional Growth

    This instrument is based upon the essential ingredients of quality 
teaching: content knowledge, pedagogy, and the ability to measure 
learning. It is built around six different evaluation domains and 
indicators and is supported by a rubric that defines the levels of the 
teaching, with a strong emphasis on content knowledge.
    While this flexibility is helpful, teachers teaching multiple 
subjects are required to demonstrate highly qualified status in each of 
the subjects taught. Thus, some feel that the requirements for special 
education teachers are more rigorous. To obtain a Tennessee special 
education license, teachers must complete 24-43 semester hours in 
special education in addition to the general education degree 
requirements. We believe the process should allow special education 
teachers to demonstrate competencies commensurate with the needs of 
students in their classrooms.
    For example, teachers of students with severe cognitive 
disabilities should be considered highly qualified by meeting our 
State's requirements for a special education license. By completing 
additional special education coursework and successfully passing the 
teacher's licensing exam, they demonstrate the subject area knowledge 
sufficient to effectively provide the level of instruction appropriate 
to students like my son.
    It is our understanding that the HOUSSE option will sunset in 2006. 
We recommend that this option remain in place for special education 
teachers and for general education teachers who are reassigned to a 
different academic subject. In addition, we recommend an extension of 
the current 2-year window in which special education teachers of two or 
more academic subjects may become highly qualified through the HOUSSE 
option.
    Students with disabilities deserve effective teachers, and special 
educators must understand not only the subject, but the student. I have 
spent most of my professional career and my personal life dealing with 
issues that affect the lives of children with disabilities. At the end 
of the day it's about more than the standards. It's about making sure 
that we do all we can to place and retain effective teachers in our 
special education classrooms so that all students, including those with 
disabilities, reach their potential.

    Senator Alexander. Why don't we go on to Ms. Senne.
    Ms. Senne. Thank you to this committee for the opportunity 
to participate in today's discussion as it relates to the new 
provisions included in the reauthorization of IDEA and special 
education teacher requirements.
    I am the parent of a child with a disability. I am also the 
parent of a child who, under the law, is entitled to the same 
quality of education as that of my nondisabled children. 
Unfortunately, my son Patrick, and for many families of 
children with disabilities, there continues to be a gap in the 
quality and quantity of special education teachers for him.
    There are not enough skilled, knowledgeable, certified, or 
available special education teachers to provide instruction to 
my son and others like him in our educational system. This past 
year, my son Patrick was taught by a highly qualified special 
education teacher for the first time in his school career. 
Patrick is 16. Patrick has a moderate disability. A key 
ingredient for learning and success in the classroom for him 
and for my other children has been the teacher. Patrick has had 
the good fortune to be taught by several dedicated, 
compassionate teachers, professionals, and other personnel. He 
also experienced poorly trained, inadequately prepared, 
frustrated teachers who stayed in the classroom biding their 
time. The experience has been exhausting and frustrating for 
myself, for my family, and most of all, for Patrick.
    The success is learning skills regarding the needs of 
children with disabilities. The successes have occurred most 
often when the teacher's disposition was one of understanding, 
openness, and willingness to work with my family. The successes 
have occurred for Patrick most often when there has been a 
balance struck between knowledge of the content, the skill to 
work with that particular disability, and a willingness on the 
part of that teacher and on the part of the other 
paraprofessionals to partner with other professionals and to 
support the process of Patrick's learning.
    Historically, I as a consumer, I as the parent, assumed 
that the teacher provided the instruction to my child was 
specifically trained and had knowledge in the content area and 
had experience working with students with disabilities, like my 
son Patrick, with a diagnosis of autism. I as a consumer 
trusted that these teachers were qualified to teach not just 
the subject, but the child. What I discovered is that no parent 
can assume this and that we all need to learn what questions to 
ask. What I discovered is that the teachers wanted to teach, 
wanted to see learning and successes for my son, but did not 
have adequate training or support to do this.
    In an attempt to support those teachers willing to teach my 
son, I realized that the expertise needed had to come from 
somewhere else. Out of frustration and to find qualified 
teachers and to find the people to help my son, I went 
elsewhere in the community and partnered those persons with 
those in the education system. Out of frustration, I developed 
a partnership with the university, helped develop an 
Exceptional Education Institute, a training and information 
center for families that would support teachers, pre-service 
teachers, and other educators.
    I returned to higher education recently to complete a 
doctoral degree myself in exceptional education in order to 
navigate through the high school experience with my son. I had 
heard horror stories from families, and most families, by the 
time their children hit secondary level, leave the system. My 
son, Patrick, will graduate this spring from middle school and 
he will start this fall in high school.
    When the high school principal says to me next year, ``Your 
son will have a highly qualified special education teacher if 
we can find one,'' I as many other parents ask, what does that 
mean? Does that mean that the teacher has been able to pass a 
State test and therefore be ready to teach my child? In the 
State of Florida, that is true. Does highly qualified special 
education teacher mean that the individual has been prepared to 
instruct in a special content area, elementary, middle, and 
secondary? Does that mean that the individual has been prepared 
to teach students with disabilities, has the knowledge in that 
content area?
    As a parent, I want an adequately prepared qualified 
teacher for my son. I believe that a special education teacher 
must possess not just specific knowledge and demonstrate 
certain skills in order to teach my son. This same teacher must 
also be able to teach my son geography, science, and math. It 
is important that we not sacrifice the special education 
qualifications for skill in the content area. There is a risk 
of losing the balance between the special educator's unique set 
of qualifications and the need for content knowledge.
    I would like to finish by saying that as a parent, it is 
incredibly confusing in my State and in the area that I live. 
We don't know the questions to ask as parents. We the consumer 
want to know what is a highly qualified teacher, what is a 
highly qualified special education teacher? What we find out is 
that those questions are usually asked only when mediation and 
due process comes about because the school system and the 
families don't work together and the information isn't there 
for us and we assume that they are special educators and we 
assume they are highly qualified, but there is no information 
available.
    Senator Alexander. Thank you very much.
    [The prepared statement of Ms. Senne follows:]

                    Prepared Statement of Mary Senne

    Introduction--Thank you to this committee for the opportunity to 
participate in today's discussions as they relate to the new provisions 
included in the reauthorization of the Individuals with Disabilities 
Education Act (IDEA) and special education teacher requirements. I am 
the parent of a child with a disability. I am the parent of a child 
who, under the law, is entitled to the same quality of education as 
that of my nondisabled children. Unfortunately, for my son, Patrick, 
and for many families of children with disabilities, there continues to 
be a gap in quality and quantity of special education teachers.
    I. There are not enough skilled, knowledgeable, certified or 
available special education teachers to provide instruction to my son 
and others like him in our educational system. This past year, my son 
was taught by a highly qualified special education teacher for the 
first time in his school career, Patrick is 16. A key ingredient for 
learning and success in the classroom for my children has been the 
teacher. Patrick has had the good fortune to be taught by several 
dedicated, compassionate teachers, paraprofessionals and other school 
personnel. He has also experienced poorly trained, inadequately 
prepared, frustrated teachers who stayed in the classroom biding their 
time, until a better opportunity came along. The experience has been 
exhausting and frustrating for my family, and most of all for Patrick. 
The successes in learning for my son have come about when the teacher 
has possessed sufficient knowledge and skill regarding the needs of 
children with disabilities. The successes have occurred most often when 
the teachers' disposition was one of understanding, openness and a 
willingness to work with my family. The successes have occurred most 
often when a balance was struck between knowledge of the content, the 
skills to work with the particular disability and a willingness, on the 
part of the teacher, to partner with others and myself to support the 
process of learning for Patrick.
    II. Historically, as a consumer, I the parent assumed that the 
teacher providing instruction to my child was specifically trained and 
had knowledge in the content area and had experience working with 
students with disabilities. I as the consumer trusted that these 
teachers were qualified to teach not just the subject but the child. 
What I discovered is that no parent can assume, and that we all need to 
learn what questions to ask. What I discovered is that the teachers 
wanted to teach, wanted to see learning successes for my son, but did 
not have adequate training or support to do this. In an attempt to 
support those teachers willing to teach my son, I realized that the 
expertise needed to come from somewhere else. Out of frustration, to 
find a qualified teacher to teach my son, I developed a Center for 
Autism and Related Disabilities and brought those personnel into the 
school setting through the IEP process. Out of frustration, I developed 
in partnership with the nearby University, an Institute for Exceptional 
Education, a training and information center to support preservice 
teachers, teachers in the community and families. Out of frustration 
and fear, I returned to higher education to complete a doctoral degree 
in exceptional education in order to navigate through the high school 
experience with my son. I will graduate this spring. He will start high 
school this fall.
    III. When the high school principle says to me, ``next year your 
son will have a highly qualified special education teacher,'' if we can 
find one, I, as many other parents ask, what does that mean. Does that 
mean that the teacher has been able to pass a State test and therefore 
be ready to teach my child? Does highly qualified special education 
teacher mean that the individual has been prepared to instruct in a 
specific content area for elementary, middle and secondary level? Does 
that mean that the individual has been prepared to teach students with 
disabilities, has knowledge of the specific content area, and can pass 
a State test? As a parent, I want an adequately prepared, qualified, 
teacher for my son. I believe that a special education teacher must 
possess specific knowledge and demonstrate certain skills in order to 
teach my son. This same teacher must also be able to teach my son 
geography, science and math. It is important that we not sacrifice the 
special education qualifications for skill in the content area. There 
is a risk of losing the balance between the special educators unique 
set of qualifications and the need for content knowledge if we allow 
one to supersede the other.
    Recommendation: My son has remained in middle school for 2 extra 
years because the local high school has been slow to meet the mandates 
of the law, and to hire qualified special education teachers. The 
shortage of personnel in our area is extreme. My son needs teachers 
that are capable of preparing him for life after high school, for 
employment, for further education. Federal mandates such as IDEA, HEA, 
and NCLB must continue to put pressure on our education system to 
invest in training on the preservice level, to support faculty in 
higher education to prepare our teachers and continue to give leverage 
to families such as myself, to challenge the system from within.
    The State and local education agencies must provide clearer, more 
concise information so that families will know to ask the question, 
``Is my child's teacher qualified?''

    Senator Alexander. Senator Kennedy?
    Senator Kennedy. Just very quickly, I thank all of you. And 
let me thank Mr. Hager so much for getting those regulations 
out. This is not probably generally considered to be a very 
admirable or worthy endeavor, but I will tell you, I think all 
of us appreciate the fact that we have got some real action on 
it and I think, hopefully, a lot of the questions will be 
answered with this. I was interested in what Mary said. We had 
tried with the No Child Left Behind, one of the key elements 
was involvement of the parents and the families in these 
programs. I don't know whether we are doing as well. We 
probably ought to have another panel some other time to find 
out how effective that was, but that was a very, very key 
element, to bring them in, to have them understand what is 
happening in the schools, in their school, who was qualified, 
what kind of progress the school was making so that they would 
find out if the next school was doing better, that it was going 
to create some grassroots kind of effort to try and get some 
response and reactions to this. I would be interested--I will 
follow up. I am not going to take time to go over here how that 
has either happened or failed in that community.
    I think you raise very good questions about what these 
words mean. What, in simple terms--I think you raise very good 
questions. Parents say, when someone is highly qualified, what 
does it really mean? What would you say? I will ask you, Mr. 
Hager. What are going to be the common kind of themes? What are 
the kind of--how would you answer that question?
    Obviously, we have all heard you have different criteria in 
different States and different States are doing different 
things, but a very important part of the No Child Left Behind 
was that we were supposed to move toward sort of proficiency 
with everybody over a period of time. That was certainly the 
goal there. So how do you--what do you think? What are the 
common kinds of----
    Mr. Hager. Certainly, I can answer the question with a 
technical answer, but what I would like to do is give you sort 
of an opinion answer and it goes to effectiveness. Teacher 
quality, if you will, it is not just about whether they have 
got the degree and got the certification but it is do they get 
the job done? So that is the intangible part of the whole 
notion of highly qualified.
    I think experience is part of it, and I think that is why 
the law is intended to recognize the experience of teachers who 
have been in the profession, and through the HOUSSE procedure 
allow them to gain the status without having to go through the 
tests, just like my colleague said earlier. But certainly the 
intent is that they have that ability to teach students to 
produce.
    You know, there was a study in Tennessee that found that 
students with highly effective teachers for 3 years in a row 
scored 50 percent points higher on a test in math skills than 
those whose teachers were ineffective. So perhaps that helps a 
little bit----
    Senator Kennedy. Was the effectiveness tied to the 
certification and the knowledge of the course, or were they 
just good teachers, or what are you telling us?
    Mr. Hager. I think both. Carolyn, help me out here.
    Ms. Snowbarger. Well, the study they are referring to 
looked at teachers of math students and they were described as 
being highly effective teachers and they had several criteria. 
They were looking at student effect data, the impact teachers 
had had on student achievement, and a number of other studies 
have talked about in the math area the importance of a teacher 
having a major in the field math and that students who have 
teachers who have majored in math routinely will score higher 
on the State achievement test than those who do not.
    Mr. Islas. If I can just add something, the question that 
you posed and that Ms. Senne posed was what does highly 
qualified mean, and I think Congress actually hit on the 
perfect formula for giving you the information you need for 
highly qualified. Highly qualified in terms of the law is 
simple. Do teachers know the subject that they are teaching? Do 
they have a real strong grasp on what they are teaching? And do 
they know how to teach? So you have the pedagogy and the 
licensure and those types of things, but then you have the 
content knowledge.
    So what we expect when we ask States to set up these 
standards, their own way of doing it, we want to make sure that 
you are provided the information of whether the teacher knows 
the subject that they are teaching and they have the skills to 
actually communicate that to students. Hopefully, we can get 
there.
    Senator Kennedy. Mary, is there a follow-up question you 
would want to ask them, because--go ahead.
    Ms. Senne. Thank you, Senator Kennedy. I think my follow-up 
wouldn't be a question, it would be a comment, and again, it 
goes back to the confusion. In our State, and my son has 
experienced, I think, now 18 or 19 different varieties of 
teachers and you can have a Master's in special education and 
have 15 years of experience, or you can have 2 years as a 
paraprofessional and you can still provide teaching and 
instruction to my son. There is such an inconsistency, and the 
school systems, even if they have the information, are 
confused. The teachers are confused. The teachers are 
petrified. They don't know what to do with the information they 
are given.
    Their relations with the families--and I have seen an 
improvement in the partnerships, at least in my area of 
Florida, but the parents are asking tough questions now of the 
teachers in terms of not can you teach geography to my child, 
but with my child with this particular disability or with these 
challenges, what is your experience, and that teacher says, ``I 
don't know. I am just in here because they can't find anyone 
else,'' or ``I am doing this and I hope I am qualified, I hope 
I have the right certification,'' or the administrator is 
saying to the parent, ``Just hang on''--I am in a situation 
where my son is hanging on in middle school for 2 extra years 
now as our high school fights and works through these issues.
    So the confusion for families really is, for those of us 
that even know the law, we need to know what questions to ask 
when we are saying, I want a highly qualified special education 
teacher in this classroom. Specifically what is that? Simplify 
it and then get that information out to the families and to the 
teachers and to administrators.
    Mr. Hager. Well, I certainly share your concerns. We 
realize the world is not perfect out there. When we first met 
with Senator Alexander about 4 or 5 weeks ago, he challenged us 
to do some things to try to get the word out, to try to clarify 
some of this confusion. And, in fact, we have done five 
separate things since we met with you, Senator.
    First, we established a dedicated IDEA 2004 presence on the 
Department of Education's Web site where individuals could go 
to learn about our technical assistance, our activities and 
information about highly qualified.
    Second, we prepared a series of topical briefs. We talked 
about the one-pager. Unfortunately, after the lawyers got hold 
of it, it wouldn't fit on one page.
    [Laughter.]
    We have put these topical briefs out and widely distributed 
them around the country.
    Third, we conducted a series of teleconferences with the 
various TA providers that we have all over the country on these 
various subjects.
    Fourth, the Center for Improving Teacher Quality, an OSEP-
funded project at the Council for Chief State School Officers, 
was funded to assist States to improve the preparation, 
licensing, and professional development of both general and 
special education teachers with an emphasis on strategies to 
help States with their implementation of HQT and also to assist 
States in the development of HOUSSE. We also collaborated with 
OESE, where Carolyn and Rene work, of course, the Office of 
Elementary and Secondary Education, to try to coordinate their 
technical assistance on this very same subject.
    And finally, the IRIS Center for Faculty Enhancement is an 
OSEP-funded project serving college faculty in pre-service 
preparation programs. We tried to get the word out through 
IRIS.
    So while this is not simple, it has been a coordinated 
massive effort to try to do a better job of allowing pre-
regulation, because you can't talk about what is in the 
regulations until they are public, but pre-regulation to allow 
people to understand to the best we can do it what is required, 
how we can help, where they can go for assistance, you name it.
    Senator Kennedy. I want to thank you and thank you, Mary. I 
just mentioned the administration, to be reminded by the staff, 
we had a 1 percent set-aside of the No Child Left Behind to 
involve parents in the schools. It does apply. It may be 
worthwhile reviewing to see how that is working and how that is 
being actually enforced, because I think you are getting some 
questions here from a parent that are the kind of questions 
that we ought to hear about, and people in the local and States 
ought to hear about them. They are very----
    Mr. Hager. Very good comments, sir. Yes, sir.
    Senator Kennedy. I thank the chair.
    Senator Alexander. Thank you, Senator Kennedy.
    I want to go to Tennessee and Maryland and ask a very 
specific question, and then I will go to Senator Sessions and 
then we will have a little more time. I want to make sure I 
understand this, because I have lived long enough now not to be 
ashamed to say that everything isn't perfectly obvious to me 
the first time I hear it, even the second and third time.
    Let us say, Lana, that I am a high school teacher of 
special education children in Morgan County, which is an area 
you know pretty well, which is a rural area in Tennessee. Now, 
it is likely I will be teaching multiple subjects, is that 
right? How many subjects might I be teaching?
    Ms. Seivers. In special education----
    Senator Alexander. Special education.
    Ms. Seivers. [continued.]--that would depend on a child's 
IEP. Typically, it is math and reading.
    Senator Alexander. But would there be any need for--would 
it be unlikely if I were a special education teacher in Morgan 
County for me to be certified to teach in more than math and 
reading?
    Ms. Seivers. Oh, absolutely. It would be possible the 
teacher could teach all the core academic areas.
    Senator Alexander. So that would be math, science, English, 
history, geography. That is five. Any more?
    Ms. Seivers. It depends on what grade level----
    Senator Alexander. So it might be six or seven?
    Ms. Seivers. Right.
    Senator Alexander. So there might be a rural teacher who 
would need to be qualified--who might be teaching in several 
subjects. Now, today, what does that teacher have to do? How is 
that teacher certified today in Tennessee?
    Ms. Seivers. A special education teacher today would have 
the general education core as far as their undergraduate or 
graduate degree as well as the special education classes, 
anywhere from 24 to 43 hours in special education.
    Senator Alexander. Well, no, what I mean is, is there a 
certificate? This person in Morgan County is what I am talking 
about.
    Ms. Seivers. Would have a special education license. Would 
be endorsed to teach special education.
    Senator Alexander. Which means having taken a specific 
curriculum at the teacher's college?
    Ms. Seivers. Correct.
    Senator Alexander. And having gotten that in education, 
would have a certification----
    Ms. Seivers. Yes.
    Senator Alexander. [continuing.]--that would permit her to 
teach all those subjects, whatever was required in Morgan 
County High School if multiple subjects were required?
    Ms. Seivers. With the current licensure. However, No Child 
Left Behind requires that that teacher demonstrate competence 
in each content area.
    Senator Alexander. So that teacher suddenly now has to 
demonstrate competence in three of the seven subjects. Now, in 
Tennessee today, how is that done? That teacher in Morgan 
County, how is she dealing with that requirement, or is it a 
requirement yet? Or is it not a requirement until May of 2006, 
or is it a requirement today?
    Ms. Seivers. In May of 2006, but in 2003, we implemented 
the HOUSSE option and that would allow that special education 
teacher to demonstrate competence either using the Tennessee 
Value-Added Teacher Effect, how well have that teacher's 
students done----
    Senator Alexander. This four-part----
    Ms. Seivers. Yes.
    Senator Alexander. [continuing.]--program that you outlined 
in your----
    Ms. Seivers. Right.
    Senator Alexander. So this was before we added flexibility 
toward the end of 2004 and the IDEA law, is that right?
    Ms. Seivers. Yes, it is. It more or less merged the 
flexibility with No Child Left Behind with the reauthorization.
    Senator Alexander. So are you saying that basically the 
original No Child Left Behind law gave you the opportunity to 
take this four-part HOUSSE system and create a way that the 
Morgan County teacher could become highly qualified by May of 
2006, is that right?
    Ms. Seivers. Yes, Senator, although I do think that some 
who have more than three subjects, perhaps, would have a very 
difficult time doing this by 2006, even under the HOUSSE 
option.
    Senator Alexander. But are you telling me, though, that it 
is clear what the requirement is? It might not be clear that 
they could do it, but is it clear----
    Ms. Seivers. Yes, sir.
    Senator Alexander. I mean, if she calls you up, you could 
tell her exactly what is required today?
    Ms. Seivers. Absolutely, and we could give her several 
options from which to choose in which to demonstrate her 
competence.
    Senator Alexander. Competence in each one of those core 
areas.
    Ms. Seivers. Yes, absolutely.
    Senator Alexander. So you can demonstrate geography these 
three ways and math these three ways and reading these two ways 
and----
    Ms. Seivers. Yes, and in addition, in Tennessee, we have 
had highly qualified institutes in the summer so that we have 
worked with teachers in intense 40-hour sessions on the content 
areas in math, reading, language arts, and writing.
    Senator Alexander. Now, did the change in the IDEA law that 
we put in at the end of 2004 which was to provide, quote, 
``more flexibility'' in the HOUSSE--of course, that is what 
these regulations are about that are coming out more rapidly 
than any regulations ever have, will that be of any help to you 
or can you assess that?
    Ms. Seivers. Well, I am anxious to see what those rules are 
in December, and at that point, we can modify our plan if we 
needed to.
    Senator Alexander. And what suggestion would you have to 
them about those regulations to deal with the situation that 
you have already got set up?
    Ms. Seivers. The extension of time. I think when we are 
talking about truly becoming knowledgeable in content area, we 
have to have more time----
    Senator Alexander. Well, Congress, against Senator 
Sessions's and my best judgment, didn't give more time----
    Ms. Seivers. And that is unfortunate because they should 
have listened to the two of you. You were exactly right.
    Senator Alexander. Well, that is what we thought, but--
[Laughter.]--there was a vote and we lost.
    [Laughter.]
    But other than time--or am I wrong about that? Is there--
let me go to you, Mr. Hager. Can you say, is there a phase-in 
period under the law as we have passed it that would permit--
could the Department permit a State like Tennessee or Maryland 
or any other State who you judge as making a good faith effort 
to get to where they need to go, have we given you any 
flexibility at all in dealing with that?
    Mr. Hager. The answer clearly is no. Now, let me just say 
one thing, though, that might help in this particular 
situation, and that is the flexibility announced, I believe it 
was last year, by the Secretary under the rural teacher 
provision. Teachers in eligible rural districts who are highly 
qualified in at least one subject will have 3 years to become 
highly qualified in the additional subjects they teach. So I 
think the rural provision may well help in her situation that 
she is talking about.
    Senator Alexander. Mr. Secretary, we would like to talk to 
you about the definition of rural----
    Mr. Hager. OK.
    [Laughter.]
    Senator Alexander. [continuing.]--because----
    Mr. Hager. I would be happy to, because I don't----
    Senator Alexander. No, no, this is part of this discussion. 
Tennessee, which is not considered to be one of the major 
metropolitan areas of America, has four--of our 95 counties, 
four are considered rural, and I know Morgan is one.
    Senator Sessions. Well, I think we have only one.
    [Laughter.]
    Senator Alexander. So Alabama and Tennessee have become the 
most urban, and that might be an area where you could help, 
because I believe that is an administrative decision rather 
than a--am I correct about that?
    Mr. Hager. I think so, but I----
    Senator Alexander. I think the definition of rural is 
subject to your review and doesn't require a change in the law, 
or am I wrong about that?
    Mr. Islas. We based our definition of rural for this 
flexibility and eligibility for the extra flexibility based on 
a definition that Congress defined in the Small Rural Schools 
Achievement Program as part of the Rural Education Achievement 
Program. So we based it off of that.
    Senator Alexander. Well, if we had more rural--is this a 
problem that exists more in the rural districts? Is the problem 
of needing more time to qualify more of a rural problem than an 
urban problem, or would it be true of teachers in both 
settings?
    Ms. Seivers. I think in both, because in some of our inner-
city schools and in some of our lowest-performing schools, we 
found a great deal of teacher turnover. A great number of 
teachers had chosen to teach in the suburbs, teach in the more 
affluent areas, teaching in the less-needy schools. So we have 
an issue everywhere. I think in rural districts, though, that 
teacher probably has to teach more core academic subjects. 
Certainly the collaboration you talked about is a positive 
offshoot of this.
    Senator Alexander. Now, I don't want to take too much time, 
I want to get to Senator Sessions, but may I kind of wind this 
line of questioning up?
    Senator Sessions. I think the former Secretary of Education 
should get more time than the rest.
    [Laughter.]
    Senator Alexander. No, I----
    Senator Sessions. And the former President of the 
University of Tennessee----
    Senator Alexander. And one of the most junior United States 
Senators.
    [Laughter.]
    But what we have said is that this teacher in high school 
in Tennessee, that one thing that she may have to demonstrate a 
core competence in several areas. One thing that helps is that 
you have got a system in place that gives her several ways to 
do that and that those ways are clear today. You could explain 
to her what those things are. You couldn't tell her what the 
regulations are going to say, but you could say what those 
things are.
    Ms. Snowbarger. Senator, if I can insert something right 
here that your rural teachers might like to be aware of, 
through our Teacher-to-Teacher Initiative, we provide free e-
learning modules for them that they can view online if they 
would like, and many States--Tennessee is one--will allow 
teachers to earn points to be highly qualified using some of 
the resources from the Department of Education, and that is 
part of our matrix.
    Senator Alexander. Before I stop, is there anything other 
than more time that would make it easier for that teacher in 
Morgan County to meet the qualifications by May of 2006?
    Ms. Seivers. I think just continuing to offer highly 
qualified institutes, the e-learning opportunities for them to 
not only demonstrate that they are competent, but to actually 
become more competent in subject area. I think the more we can 
do as a State Department and as a U.S. Department, the better 
off we will all be in that regard.
    Senator Alexander. Do you agree that that teacher in Morgan 
County ought to, if she is going to continue to be a special 
education teacher, ought to eventually demonstrate competence 
in all of the areas that she teaches? Do you agree with that?
    Ms. Seivers. Yes, Senator, I do.
    Senator Alexander. But you are not saying, don't do that. 
You are saying that it will be hard to do by May of 2006.
    Ms. Seivers. I think the time line is the difficult area. I 
think there are ways that we can assist that teacher. The time 
line is what really concerns me more than anything. But I think 
whether we are talking about Memphis or Morgan County, that 
special education students deserve a teacher who knows how to 
teach math, who knows the subject himself or herself. I think 
to do less is a disservice.
    Senator Alexander. OK. Thank you very much.
    Now, I want to welcome Senator Reed. Senator Reed, we are 
trying a roundtable, which is discussion, discussion. It is a 
square round table. We have done pretty well so far, and let me 
go to Senator Sessions and then I will come to you, if that is 
all right. Senator Sessions?
    Senator Sessions. Yes. Ms. Seivers, since you have been 
asked a number of questions, I think I will follow up. I 
thought I heard you say, and you didn't get to complete the 
thought or didn't complete it entirely, which was if you want 
to improve subject matter learning, it takes a little time.
    Ms. Seivers. I am sorry----
    Senator Sessions. If you want to improve subject mastery, 
it takes some time. Now, if all we are doing is going through a 
process to get somebody certified by running around and filing 
a bunch of papers and somebody gives them a certification, that 
has not helped us. Am I raising a subject or a question that 
has some validity here or concern? Would you have a comment on 
that?
    Ms. Seivers. I think time is what most of our special 
education teachers would tell you, although there is a belief 
that they should not have to demonstrate mastery of every 
subject. I think if you teach it, you need to know the subject. 
So if you are talking about four or five different core courses 
that you teach, it is going to take more than 1 year or one 
summer or two summers to do that. So, yes, I think time is a 
main issue.
    Senator Sessions. Let us say you are teaching algebra or 
some other specialized subject, and you are not qualified in 
that subject, we are not talking about getting you a piece of 
paper that says you are qualified. Presumably, we want that 
person to take some courses in advanced math, in how to teach 
advanced math and those kind of things. You just can't snap 
your finger and get that done next week. Would you agree with 
that?
    Ms. Seivers. Absolutely.
    Senator Sessions. Mr. Langham, would you have any comment 
on that from an Alabama perspective?
    Mr. Langham. Absolutely. I wish I had a more creative 
response to crying over spilled milk about I wish we had more 
time, but I totally mirror Lana's comments.
    Senator Sessions. Mr. McLeskey, we are also concerned about 
university programs and programs of education. Are you 
satisfied that the universities who are giving degrees in 
special education are aware of the requirements of this act and 
the spirit of this act? Are they sufficiently in sync when a 
student comes out that they meet the standards that they would 
need to meet in most schools?
    Mr. McLeskey. I certainly don't think we are in sync at 
this point in time and it is going to take time. We move fairly 
slowly, as certainly Senator Alexander knows, in Tennessee and 
Florida and other places in higher education. So it takes a 
while to change----
    Senator Sessions. Not when he was President.
    [Laughter.]
    Mr. McLeskey. But we are changing rapidly. I know Florida 
and our State Department has worked very closely with 
institutions of higher education to provide fast-track summer 
programs, to do a whole variety of things with educator 
preparation institutes. They are looking at program approval 
standards and loosening those to some degree in appropriate 
ways so that higher education institutions can get more 
involved in alternative certification programs. So I think a 
lot is happening in the State of Florida, and I think around 
the country, to begin to address these issues. We certainly 
can't do it alone, obviously, but we are doing all we can to 
jump on board and to provide as many teachers as we can.
    Senator Sessions. Mr. Langham, as Superintendent, do you 
have problems of finding qualified graduates?
    Mr. Langham. Absolutely. I just----
    Senator Sessions. Of course, you're in a popular area of 
the State, but you do have problems?
    Mr. Langham. Absolutely. I was just talking with our 
personnel director yesterday. We are quite concerned about the 
limited applicants that we have coming up for this next school 
year. So yes, we are having problems.
    Senator Sessions. Well, I won't continue on that subject 
other than to say that to me, having a teacher more qualified 
in a subject matter is not something that can just be done in 
one semester. I mean, they may need to go back for courses for 
2 years. That is what you would like to see, that people really 
step up their professional qualifications and make a commitment 
to it and that somehow we would be supportive of that and 
develop a program or a track for them to move forward on so 
that they can achieve highly qualified status. In the meantime, 
if they are making progress, they not be stigmatized as being 
not qualified, or not highly qualified. That is the concern 
that I have--it is an idea that I have reached. Would any of 
you disagree or have any further comments on that?
    Mr. Islas. Senator, I do have one comment, that you hit on 
a very important point, that it does take time for teachers to 
become highly qualified and gain that subject matter knowledge.
    The thing that we have seen is that No Child Left Behind 
requires all teachers, including special education teachers, to 
meet these general common sense requirements since January 8 of 
2002. States have had time. Tennessee--I am not saying it is 
completely sufficient, but States like Tennessee jumped on the 
bandwagon immediately and put together four HOUSSE options to 
help the teachers get the expertise and the training over the 
time and to recognize their expertise.
    And then other States have not done so and we are working 
with them despite that, despite the fact that they chose not to 
require their special education teachers, and ignore the law, 
and help them meet the requirements by the time line that was 
set up in the statute.
    The other thing is I do think that the response that 
Congress just made with the IDEA, allowing more time for 
teachers who are teaching multiple subjects, will be something 
that will help, so that teachers over the 2 years can 
demonstrate subject matter competency and gain----
    Senator Alexander. Stop. It is not more time. It is more 
flexibility, isn't it?
    Mr. Islas. There is additional time that teachers have 
under IDEA, I believe, that says----
    Senator Alexander. How much?
    Mr. Islas. Two years. A teacher----
    Senator Alexander. Beyond May 2006?
    Mr. Islas. Yes. A teacher, a new teacher who is highly 
qualified in one subject, which has to be either mathematics, 
science, or language arts, if they are highly qualified in one 
of those subjects, the new teacher has 2 additional years to 
become highly qualified in the additional subjects that they 
teach. We feel that this is a proactive approach.
    Senator Alexander. A new teacher?
    Mr. Islas. Correct.
    Mr. Hager. That is one of the two exceptions I referred to 
briefly in my opening comments that does build additional 
flexibility into the program.
    Senator Alexander. And we will go to Senator Reed----
    Ms. Baglin. Could I just----
    Senator Alexander. --but Ms. Baglin and Mr. Connolly 
haven't had a chance to respond to any of these most recent 
questions, Senator Reed, so maybe in your questions--have you 
got time to hear their comments?
    Senator Reed. I have until ten past, but I think we can let 
them respond.
    Senator Alexander. Why don't you make 60-second comments if 
you want to and let Senator Reed ask his questions, and then I 
will give you a chance after that. Ms. Baglin?
    Ms. Baglin. OK. I just wanted to raise the issue of we have 
talked about rural settings, but I think urban settings really 
pose a very significant issue in this area because we have high 
teacher turnover anyway. We have serious issues related to 
shortage. We have school climate issues which make it very 
difficult to retain teachers that may be fully certified. And I 
know in Baltimore City, where we have a 23-year consent decree 
going on, we have a very difficult time with recruiting any 
teachers into that setting.
    So I really think in the discussions, we need to remember 
that those particular settings pose both a certification issue 
as well as a highly qualified teacher issue. So anything that 
we can do to support those particular areas, I think would be 
very helpful.
    Mr. Connolly. I would reiterate the urban problem with the 
multiple subjects is also present, based on the needs of the 
school, within the school. Also, as a veteran teacher, I am 
concerned about what I have to do. It is well that the students 
are coming out of school now highly qualified, but I need to 
know what I need to do.
    And the other thing is I think as we are talking about 
competency in the content area, we also need competency in 
areas such as teaching not just the child, teaching the 
learning disabled child. Those are two strong areas which--I 
don't know which is the give and take, but those also require 
time and dedication to get anything done.
    Senator Alexander. Senator Sessions, had you finished?
    Senator Sessions. Yes. I just wanted to correct something I 
said earlier. The survey in Washington State said that 40 
percent of the teachers plan to get out of the field within 5 
years. That would be more accurate than what my recollection 
was earlier. I think that is pretty sad, and a lot of that is 
because of paperwork and things that they feel are separating 
them from the profession they were trained for.
    Mr. Hager. Senator, just two points on that. We do have in 
the regulations a model demonstration on reduced paperwork 
which was part of the law, as you know. And the second thing 
is, part of our job is to inspire these individuals who are in 
special education to try to explain why this is important, what 
the results will be, and try to get everybody on the bandwagon. 
So we have got a big job to do.
    Excuse me, Mr. Chairman.
    Senator Alexander. No, that is all right.
    Senator Reed?
    Senator Reed. Well, thank you, Mr. Chairman, and I want to 
thank all the witnesses who have come today not to testify, but 
to converse with the committee. I think this is an interesting 
way to do it and I applaud the chairman for his initiative on 
this.
    Secretary Hager, again, thank you for your service. We just 
reauthorized the IDEA. One of the provisions which I helped 
draft is designed to help localities recruit, train, and 
support the professional development of all teachers, but 
especially special education teachers. Among the provisions is 
the State Personnel Development Grants. It is a rather meager 
amount of money, $51 million, but this is scheduled for 
elimination in the President's budget. How are we going to 
respond to the needs that we all agree are incumbent upon us if 
we don't have resources, and again, modest resources, $51 
million across the country, to at least give the States a 
little bit of help?
    Mr. Hager. That is an excellent question. I am going to let 
Carolyn--she knows the details of that budget provision.
    Ms. Snowbarger. You know, there are $3 billion in title II 
funds available to support teachers and they can be used to pay 
incentives for teachers to go into rural or urban areas. They 
can also be used to provide training for teachers so that they 
can become highly qualified, and States and districts do have 
the flexibility to determine how best to use these funds.
    Senator Reed. But I don't think anyone around this table 
would say those funds are adequate for the task, I mean, at 
least I don't think so. And here is a program that is designed 
particularly to assist the States in the preparation of 
teachers. Are those $3 billion used for recruiting also?
    Ms. Snowbarger. They certainly can be used for recruiting 
teachers and retaining teachers and paying bonuses. The State 
of Hawaii has done magnificent work in recruiting special 
education teachers using their title II dollars.
    Senator Reed. Those title II dollars are for the No Child 
Left Behind Act?
    Ms. Snowbarger. Yes.
    Senator Reed. Again, one of the points of our 
reauthorization of the IDEA was to focus specifically on 
special education and to give an emphasis to recruitment, 
preparation, and training of special education teachers. Hawaii 
might be doing that, but I am sure there are other States who 
are just trying their best to staff their classrooms with 
general education teachers. Again, there is a lot of discussion 
about time, but in addition to time, you need resources, and I 
find a budget that can't fund at least this modest amount is, I 
think----
    Mr. Hager. Senator, if I could also comment specifically on 
the provision you asked about, personnel preparation, it was my 
understanding that even though it was not in the 2006 budget 
proposal, that there was enough money still available--I don't 
know whether it is forward funding or what the technical 
description is, but there was enough money to continue that 
program for 1 more year and that the reason it was left out of 
this 2006 budget was a catch-up type of provision where the 
money would catch up with the fiscal year and it would be put 
back in next year.
    So I don't believe that that is actually discontinuing 
those personnel preparation grants. I think it is a funding 
anomaly----
    Senator Reed. Could you provide us with some information, 
because I am very interested.
    Mr. Hager. I will be glad to, but I believe that that was 
the situation in that specific instance.
    Senator Reed. Let me follow up about another provision, 
which is IDEA Part D, Subpart 2. This is the personnel 
preparation program, and it is designed to provide grants to 
localities to help general education teachers educate students 
with disabilities in regular classrooms. You know, there is an 
effort to mainstream students. I think it is a very noble and 
beneficial effort. But now you have general education teachers 
who need extra skills, if you will, to be effective when it 
comes to the special education students they teach.
    Do you have an idea about the competition for these grants 
under Part D, Subpart 2 of IDEA? Could you look into it and 
please get back to me?
    Mr. Hager. I will be glad to.
    Senator Reed. Thank you so much.
    And finally, a question that has been alluded to by my 
colleagues, and this pertains to the fact that so many 
teachers, both general education and special education 
teachers, are leaving the classroom really early. Dr. McLeskey, 
we have this terrible turnover rate among teachers, 
particularly special education teachers. How do we have 
effective teacher preparation programs in colleges that not 
only prepare teachers to go in the first day of school, but 
give them the skills and the motivation or whatever it takes to 
be committed to a teaching career over many years?
    Mr. McLeskey. There are so many ways to respond to that 
question, but I think it is important to recognize that teacher 
attrition is much higher among alternatively-certified teachers 
who don't go through higher education teacher preparation 
programs than for those who go through teacher preparation 
programs. I think it is also much lower attrition among 
teachers who go into school settings with the type of 
professional development support you were just talking about.
    I was in a meeting yesterday with five directors of special 
education from small rural school districts on our professional 
development partnerships that those professional development 
funds support in the State of Florida and they were talking 
about the impact that those funds had had by providing 
continuing professional development and supporting teachers who 
needed additional support once they got into the classroom.
    And that really comes to a final issue that I think is 
really important in that we produce in higher education 
programs initial teachers who are novices. I think education 
may be the only area, and special education is probably as 
guilty of that as any, where we produce a novice first-year 22-
year-old teacher, let us say, that is expected to do the same 
thing a master teacher does in a classroom. And quite frankly, 
we can't produce 22-year-old teachers out of undergraduate 
programs who are as expert as a master teacher like my 
colleague from Connecticut here and others. It just takes time, 
support within schools to do that. So I think we have to look 
at differentiating roles as far as teachers are concerned when 
they begin teaching and also provide support for them through 
professional development programs and so forth.
    Senator Reed. Thank you very much, Doctor. Thank you, Mr. 
Chairman. Thank you very much.
    Senator Alexander. Thank you, Senator Reed.
    We are coming toward the end of our time and I want to see 
if I can summarize and then ask Senator Sessions if he has any 
concluding remarks.
    In part of my summary, I would like to ask you how many 
teachers we are talking about. I have done my back-of-the-
envelope estimate, but we are talking about teachers, special 
education teachers of severely disabled children in middle 
school and high school, because they may be asked to teach 
multiple subjects. Not all of them will. Does anybody have a 
number?
    Ms. Baglin. I would just like to say that for Maryland, we 
have asked that question, but it is very difficult because many 
of them change assignments. There is lots of turnover. So even 
if we had a number for today, it would not be the same for the 
following school year.
    Senator Alexander. That might be different for the next--
right. But we are not talking about four and we are not talking 
about 4 million. What number are we talking about? I mean, 
there are 400,000 special education teachers. The figures I 
have got are 400,000 special education teachers who are 
certified, is that right, Kristin, something like that? Four-
hundred-and-three-thousand special education teachers employed 
in the country.
    Mr. Hager. That sounds about right. Of course, some special 
education teachers are also regular education teachers, so 
definitions get involved----
    Senator Alexander. And some of those are in elementary 
school, so maybe 60 percent would be in middle or high school. 
Would that sound right? So 60 percent of 400,000, that is 
240,000. And would we say that most of them might be expected 
to teach multiple subjects? We don't know exactly how many, but 
that might be 200,000 out of 240,000, would that be a ballpark 
number?
    Mr. McLeskey. You know, I would speculate it would be a bit 
lower. As I think about this, I think about the LRE mandate, as 
well, and I think high quality services that are provided to 
students in middle school and high school are often provided by 
general education teachers with support from special education 
teachers.
    I also--we talked about a hypothetical earlier from Morgan 
County, I believe. I have been a high school and middle school 
special education teacher and I really question the prudence of 
having a special education teacher try to teach four or five 
subjects--or any human being, for that matter, general 
education teacher, either--to try to teach that many subject 
matter areas. And when I look at it, I certainly think we need 
highly qualified teachers. But I would argue that there are 
service delivery issues in rural counties and other places that 
can address that.
    There is a middle school teacher where my kids go to 
school, special education teacher who is highly qualified and 
who will remain highly qualified under this mandate because 
general education teachers provide content area subject matter 
instruction in that middle school.
    Senator Alexander. I am just trying to get a picture of who 
we are talking about. So it sounds like we may be talking about 
less than 200,000 teachers who are middle and high school. It 
is probably more than 100,000. You would doubt that?
    Mr. McLeskey. Well, I think according to LRE data, that 
IDEA data out of U.S. Department of Education, provides, I 
think, students with disability spend 75 to 80 percent of their 
time in general education classrooms. So I would speculate more 
like 20,000, 30,000, 40,000, maybe at the most we are talking 
about. It doesn't mean it is not an issue, but I think the 
numbers are relatively small.
    Senator Alexander. Well, you are the ones who are doing the 
regulations. It would probably be wise to know who the 
regulation might affect. It could make a big difference if it 
is 20,000 or 30,000.
    Let us go to Tennessee, or Maryland. How many teachers 
would you suppose in Maryland? Do you have any range of the 
number of teachers who might be affected by this deadline, this 
May 6 deadline we are talking about?
    Ms. Seivers. In Tennessee, we anticipate about 15 percent, 
but large numbers of those are currently teaching on permits 
and waivers.
    Senator Alexander. Fifteen percent of----
    Ms. Seivers. Of 6,000.
    Senator Alexander. OK. So that is 800, 900?
    Ms. Seivers. But you made a distinction earlier, and I 
think it is a complex issue, but it is whether or not this 
teacher is the teacher of record. If the special education 
teacher assists or works with a classroom teacher who is highly 
qualified, then that special education teacher does not have to 
be highly qualified in content area. So a lot of these teachers 
for us, we don't know if they are teachers of record, if they 
are a self-contained classroom for students with severe 
disabilities, if they simply work in a tutorial kind of way 
with the classroom teacher. We have no way of knowing at this 
point what category they fit into.
    Senator Alexander. Well, let us say you are the teacher in 
Memphis or Morgan County or wherever you are. Do you know which 
category you fit into, or do you not know the category yet?
    Ms. Seivers. In the more rural areas, a teacher could fit 
in more than one category, depending on the number of teachers, 
the number of subjects. It is just----
    Senator Alexander. Well, what I am trying to do--I think 
the whole point of this is to identify them. If there are 
400,000 special education teachers like Mr. Connolly around the 
country who know this deadline is coming, May 2006, their 
question is, what does it mean for me? And we know that if they 
are a new teacher, that doesn't mean much yet because they have 
got 2 more years, is that right, for this?
    Ms. Seivers. Yes.
    Senator Alexander. But if they are a veteran teacher and 
they teach multiple, they may be asked to teach multiple 
subjects. As I assume you do. Maybe you don't. You teach 
reading.
    Mr. Connolly. Right, reading.
    Senator Alexander. But if you are in middle and high school 
and you may be asked to teach several subjects, I guess it 
sounds like the odds are it may apply to you. So I guess what 
we have also said is that the Department, in record time, is 
likely to have a regulation by the end of the year, maybe in 
November. The regulations will make it more clear how much more 
flexibility a State might have for these teachers. But in the 
meantime, there already exists a requirement that every State 
that would permit a teacher to know what a teacher had to do to 
become highly qualified. There just may be more options after 
November because of the change in the law and the new 
regulation that comes out.
    It seems to me that the important thing to do would be to 
communicate through the various associations and State 
Departments, as you are already doing. I want to thank 
Secretary Hager and Secretary Spellings for moving so rapidly 
on a problem that is really, to the extent there is a time 
problem. Congress caused it, not the Department of Education, 
and you have made it a priority and worked hard to resolve the 
problem.
    But I think if there are only 20,000 or 30,000 of the 
400,000 special education teachers, I think that is important 
information that needs to be pretty broadly disseminated. And 
so anything that could be done from the Department based on 
this discussion or State-by-State that could identify the 
profile of the kind of teacher who might be affected by this, I 
think that could help.
    I came into office after No Child Left Behind had been 
enacted. I know Commissioner Seivers became Commissioner of 
Education just as it was becoming effective. My estimate was 
that there was a lot of consternation that came with No Child 
Left Behind. My estimate was that about 70 percent of it was 
mystery and confusion and misunderstanding about what the 
Federal law required and what the State law required. I know 
that Commissioner Seivers and I actually sat down with the 
Assistant Secretary 1 day and we worked through a lot of that.
    So there is no need for us to be anxious about things that 
we don't need to be anxious about. So if I am one of 380,000 
special education teachers who may not be affected by this, I 
think the sooner I know that, the better. If it is 300,000 
instead of 380,000, that would be helpful to know, too.
    I commend you, Mr. Assistant Secretary, for getting the 
word out, and the whole purpose of this discussion today is to 
try to help those teachers like Mr. Connolly and others know 
what they need to do and when they need to do it, and to help 
Commissioners like Maryland and Tennessee, and superintendents 
know what the regulations--what they will be permitted to do in 
developing their own situations, and help parents and others 
understand that this is coming. It can't be done immediately, 
but there are these requirements already in place. There are 
these regulations which will be here by the end of the year. 
There is a deadline then to deal with by May 2006.
    Senator Sessions, what would you like to add? This was his 
amendment, after all, that got me interested in this, so I 
thank him for that.
    Senator Sessions. Thank you for your leadership. Two weeks 
ago, at a church in Mobile, I had a special education teacher 
with a, I think she has a Master's degree, has been doing it 
nearly 20 years, and was very upset, very confused. She is 
teaching at Murphy High School, a big inner-city blue ribbon 
school in Mobile, evenly racially matched, about 50-50, and an 
excellent high school. Both my daughters went there.
    But she was really upset, and so I am thinking, this thing 
is not over yet. I thought things were getting better, but she 
was really upset. So like you said, I am not sure what people 
are hearing, but it has not gotten there yet, and any extent to 
which you can preempt some of that, I think, would be better.
    You did mention two things that I hope that we will be able 
to make prompt progress on. One would be the rural schools 
definition. I think the definition is not adequate. And number 
two, the paperwork that I know you are working to reduce that 
and I hope our legislation helps you to do paperwork in a way 
that works.
    Also, I have found that with regard to No Child Left Behind 
and, I think, our reauthorization, that States have 
regulations, too. I know with regard to No Child Left Behind, 
most of the complaints I heard from Alabama were because the 
State Department had far more rigorous standards than were 
required under No Child Left Behind, but I think they blamed it 
all on me.
    [Laughter.]
    You doing all this, this No Child Left Behind? I said, no, 
we only required, what, three tests in elementary school. We 
have a rigorous graduation exam and testing every year and all 
of that. Alabama didn't have to pass any more tests because 
they were already doing more, which I was proud of, really.
    And I think our standards for teachers allow the States to 
set highly qualified standards higher than the Federal 
Government requires, is that correct? I mean, a State does not 
have to take the minimum standards the Federal Government set, 
Mr. Hager. They could set higher standards, is that right, 
because they believe it would be better for the children?
    Mr. Hager. That is right.
    Senator Sessions. And so some things that are happening 
here really are the result of the States wanting to step 
forward and do even better, which I suppose we should salute 
and be proud of.
    I thank you all for being here. This is a very, very 
important subject. I don't know yet we have a real handle on 
it. I think when I was a prosecutor for so many years, you 
would have people come to you with a theory on crime, and they 
were absolutely convinced they knew what to do. But every crime 
is different. I mean, there are some people who just make a 
mistake. Some people are murderers. And there is every scale in 
between. There is no one thing.
    And our children that have disabilities have vast 
differences. It is very difficult for the Federal Government or 
State government to say, you must treat every child exactly the 
same when they clearly are not the same. And I visited in the 
schools and you just see that each child has different 
abilities, and our goal should always be to help every child 
reach their fullest potential and create a system that helps 
teachers do that rather than make it more difficult.
    So thank you for your leadership, and I really enjoyed this 
discussion.
    Senator Alexander. We thank each of you for coming. I think 
this whole process has made some difference because it has 
caused the members of the Senate to focus on the issue. The 
Department of Education has bent over backwards, and the new 
Secretary, to try to move as rapidly as they could. You have 
also taught us some things today and reminded us of some 
things. We are always in a learning process here.
    Let me conclude by inviting you, it will be--in a couple of 
years--time to reauthorize No Child Left Behind, the Elementary 
and Secondary Education Act. Our feeling is that we shouldn't 
just suddenly do that, that we ought to prepare for that by 
making sure we understand what is going on. So if you have 
specific suggestions, either now or later, about how to help 
this program meet its objectives in a way that creates the 
largest amount of flexibility and simplicity for the parents, 
teachers, and children involved, we would like to have it. You 
can give it to us or to our staffs and we would welcome the 
opportunity to include that in what we are doing.
    Thank you very much.
    [Additional material follows.]

                          Additional Material

         Response to Questions of Senator Reed by John H. Hager

    Question 1. The newly reauthorized IDEA contains provisions I 
authored designed to help localities recruit, train, and support the 
professional development of all teachers, but especially special 
education teachers. And among the provisions is the State Personnel 
Development Grants. It is a rather meager amount of money, $51 million, 
but this is scheduled for elimination in the President's budget. How 
are we going to respond to the needs that we all agree are incumbent 
upon us if we don't have resources, and again, modest resources, $51 
million across the country, to at least give the States a little bit of 
help?
    Answer 1. The Administration has not proposed to terminate the 
State Personnel Development Grants program. Rather, the Administration 
did not request funding for this program in the fiscal year 2006 budget 
because available unobligated balances from the fiscal year 2005 
appropriation are sufficient to cover 2006 awards. The fiscal year 2005 
appropriation will become available on July 1, 2005, and remain 
available for obligation through September 30, 2006. The fiscal year 
2004 appropriation that remains available through September 30, 2005 
will be used to support 41 continuation awards made under the State 
Improvement Grants program and 9 new State Personnel Development awards 
to be made in 2005. Fiscal year 2005 funds will be used to support 32 
State Improvement Grant continuation awards and 17 State Personnel 
Development awards, including 9 continuation and 8 new grants, in 
fiscal year 2006.

    Question 2. Please provide additional information on your comment 
from the roundtable that ``even though it [funding for personnel 
development] was not in the 2006 budget proposal, that there was enough 
money still available--I don't know whether it is forward funding or 
what the technical description is, but there was enough money to 
continue that program for 1 more year and that the reason it was left 
out of this 2006 budget was a catch up type of provision where the 
money would catch up with the fiscal year and it would be put back in 
next year. So I don't believe that that is actually discontinuing those 
personnel preparation grants. I think it is a funding anomaly.''
    Answer 2. See above.

    Question 3. The other key provisions I authored are contained 
within the Personnel Preparation program, authorized under IDEA, Part 
D, Subpart 2. What are your plans in terms of grant competitions for 
the new focus on preparing general teachers to instruct students with 
disabilities in the regular classroom and for the new program to help 
beginning special educators successfully adapt to, and remain in, their 
new career?
    Answer 3. Prior to the enactment of the 2004 amendments to the 
IDEA, OSEP recognized the need for general education teachers to be 
better prepared and responded through supporting two important 
initiatives:
    <bullet> In October 2002, the Council of Chief State School 
Officers (CCSSO), through its Interstate New Teacher Assessment and 
Support Consortium (INTASC), received an award to develop the Center 
for Improving Teacher Quality (CTQ). The purpose of this national 
center is to work with States as they develop models to improve the 
preparation, licensing, and professional development of both general 
and special education teachers of students with disabilities. The 
award, which expires in fiscal year 2007, totals approximately $5 
million over 5 years.

    CCSSO is collaborating with the National Association of State 
Directors of Special Education <http://www.nasdse.org/> (NASDSE), the 
American Association of Colleges of Teacher Education <http://
www.aacte.org/> (AACTE), the Council for Exceptional Children <http://
www.cec.sped.org/> (CEC), the Federal Regional Resource Centers (RRCs), 
and the Federal educational laboratories and comprehensive centers in 
creating and implementing this new Center.
    The Center is building on INTASC's work of developing model 
policies that can help States drive systemic reform of their teacher 
licensing systems, particularly INTASC's Model Standards for Licensing 
General and Special Education Teachers of Students with Disabilities: A 
Resource for State Dialogue.
    <bullet> In fiscal year 2001, OSEP awarded a 5-year, competitive 
grant (The IRIS Center for Faculty Enhancement, Award # H325F010003) to 
Vanderbilt University to develop an array of web-based training modules 
on critical topics related to supporting the education of children with 
disabilities in general education classrooms, for use by IHE faculty 
responsible for training general education teachers (see the IRIS Web 
site at http://iris.peabody.vanderbilt.edu for a complete description 
of the work and accomplishments of the center to date). In 2006, OSEP 
intends to build upon the substantial work of the IRIS center by 
providing assistance to general education teacher training programs in 
IHEs, focusing in particular on those institutions that do not also 
have special education teacher training programs and hence, do not have 
ready access to faculty with special education expertise.
    <bullet> OSERS is also working to help beginning special educators 
in a variety of ways. For example, OSEP encouraged applicants to the 
2005 Combined Personnel Preparation competition (84.325K) to address 
the requirement to provide enhanced support for beginning special 
education teachers by including the following language in the priority: 
``Provided that there are a sufficient number of highly quality 
applications, a total of up to 5 awards will be to applicants training 
beginning special education teachers that demonstrate how the program 
is designed to meet objective (A) or (B) or both under section 
662(b)(3) of the IDEA.'' In 2006, we intend to include an enhanced 
focus on this critical objective with a particular emphasis on the 
development and scaling up of models for providing high-quality 
mentoring and induction opportunities that are effective in retaining 
and enhancing the competencies of beginning special educators, 
particularly those teachers in schools with high special education 
teacher turnover rates.

    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]


</pre></body></html>
